<html>
<title> - INTERIOR IMMIGRATION ENFORCEMENT RESOURCES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         INTERIOR IMMIGRATION 
                         ENFORCEMENT RESOURCES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2005

                               __________

                            Serial No. 109-5

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
99-785                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 10, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     3

                               WITNESSES

Mr. Paul K. Martin, Deputy Inspector General, U.S. Department of 
  Justice
  Oral Testimony.................................................     8
  Prepared Statement.............................................     9
Mr. Michael W. Cutler, Former I.N.S. Special Agent
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
Mr. Randy Callahan, Executive Vice President, National Homeland 
  Security Council, AFGE
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Dr. Craig Haney, Professor, University of California at Santa 
  Cruz
  Oral Testimony.................................................    22
  Prepared Statement.............................................    25

                                APPENDIX
               Material Submitted for the Hearing Record

Questions submitted to DHS Immigration and Customs Enforcement by 
  the Honorable John Hostettler..................................    77
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of the Texas.........    79
Prepared Statement of the Honorable Linda Sanchez, a 
  Representative in Congress from the State of California........    80

 
                         INTERIOR IMMIGRATION 
                         ENFORCEMENT RESOURCES

                              ----------                              


                        THURSDAY, MARCH 10, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:14 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Last week, this Subcommittee reviewed the lack of adequate 
resources to secure our national borders against the entry of 
criminals, gangs, terrorists, and other law breakers. But what 
resources have we committed to finding and removing such aliens 
who are already living among us? That is the subject of this 
week's hearing.
    The 9/11 Commission staff report on terrorist travel stated 
it had, ``identified numerous entry and embedding tactics 
associated with earlier attacks in the United States,'' and 
that prior to 9/11, ``abuse of the immigration system and a 
lack of interior immigration enforcement were unwittingly 
working together to support terrorist activity.''
    But this threat is hardly one for the history books. 
Admiral James Loy, Deputy Secretary of Homeland Security, 
recently testified that, ``We believe that attacking the 
homeland remains at the top of al-Qaeda's operational priority 
list. . . . We judge . . . that the next dramatic attack will 
attempt to replicate the 9/11 model of multiple attacks against 
geographically distant and symbolic targets that cause 
unprecedented economic damage, mass casualties, and physical 
destruction. . . . Thus, the probability of an attack in the 
United States is assessed to be high.''
    And Director of the Federal Bureau of Investigation, Robert 
S. Mueller, testified that, ``In 2004, we learned that 
operatives had conducted detailed surveillance of financial 
targets in New York, Washington, D.C., and New Jersey . . . a 
sobering reminder of the threat we continue to face. . . . 
[There] is the threat from covert operatives who may be inside 
the U.S. who have the intention to facilitate or conduct an 
attack. I remain very concerned about what we are not seeing. 
Efforts by extremists to obtain training inside the U.S. is 
also an ongoing concern.''
    Also, Representative Solomon Ortiz told us last week that, 
``Enforcement officers routinely release illegal immigrants 
into the general population of the U.S. because they do not 
have the sufficient funds and space to detain them at detention 
facilities. Captured [Other-Than-Mexican aliens] are released 
on their own recognizance and are ordered to appear at a 
deportation hearing weeks after their release . . . but the 
number of released illegal immigrants not returning for 
deportation grows by the hundreds each week. [This is] 
undermining our national objective to take the war to the enemy 
so we do not have to fight the war on terror inside our 
country.''
    My colleague from the minority is quite correct. I am 
concerned that we must, indeed, `fight the war on terror inside 
our own country.' And while an aggressive and committed 
strengthening of our borders by the doubling of Border Patrol 
agents is a vitally important layer in our homeland security, 
it is but one layer of what should be a multi-layered approach.
    Recently, there has been much discussion centering around 
the comments of members of the Administration regarding the use 
of our porous borders by terrorists to enter this country 
illegally and striking the homeland. But the question that I 
ask today is this, `Why would a terrorist, or group of 
terrorists, risk possible interdiction at the border and 
subsequent detention, questioning, arrest, or removal when they 
could obtain, say, a student visa or visas, enter the country 
legally, melt into society, and stay as long as they wish, 
knowing the Federal Government will likely never give them 
another thought, even if they overstay their visa?'
    Purely imaginary, you would say? Well, imagine this. All 19 
of the 9/11 hijackers legally entered the United States. 
However, on September 11, 2001, three of the 19 were illegally 
present in our country because their visas had lapsed. Due to a 
lack of resources, a lack of policy emphasis of removal of 
illegal aliens, or a combination of the two, there was no 
action taken to aggressively enforce the immigration laws in 
the interior United States, and the rest, as they say, is 
history.
    These facts led the 9/11 Commission to report that 
apprehension of, [b]oth Hazmi and Mihdhar [two of the 9/11 
hijackers] could have derailed the plan.' `[The] plan' that the 
Commission refers to is the flying of planes into buildings and 
that cornfield on that fateful day. The continuation of the 
lack of interior enforcement most probably encourages future 
terrorists to ask, `If it's broke and they're not going to fix 
it, why change tactics?'
    But as our colleague, Mr. Ortiz of Texas, testified last 
week, terrorists do not come into our country with a big ``T'' 
painted on their forehead. They make their way into our 
country-to use the gentleman from Iowa, Mr. King's, analogy-as 
that needle in a haystack of millions of legal and illegal 
immigrants. If we are to have any hope of ever exposing the 
needle, we must greatly diminish the size of the haystack.
    `How do we do that?' You may ask? By remembering what the 
U.S. Commission on Immigration Reform said in its 1997 
Executive Summary when it stated, ``[r]educing the employment 
magnet is the lynchpin of a comprehensive strategy to deter 
unlawful migration.'' By aggressively enforcing our immigration 
laws in the interior United States and especially worksite 
enforcement, significantly increased numbers of Immigration and 
Customs Enforcement, or ICE Agents, will complement the 
increased manpower defending the integrity of our borders.
    Likewise, Representative Ortiz told us the consequences of 
inadequate detention beds. And because of a lack of ICE Agents, 
absconders go free and as I said earlier, employer sanctions 
have been abandoned.
    As Hal Rogers, Chairman of the Appropriation Committee's 
Homeland Security Subcommittee recently stated, ``Detention and 
removal officers had to reduce the number of detainees held at 
one time, about 23,000, to below 18,000. . . . ICE has not been 
fully engaged in going after absconders and is removing 
deportable aliens at a slower rate than in 2004. . . . There is 
roughly 465,000 absconders. . . . Forty-five of those are 
criminals . . . this has got to be on the top of our list, has 
it not?''
    Last year, this Congress passed and the President signed 
the Intelligence Reform and Terrorism Prevention Act. This Act 
called for an 800-agent increase in ICE strength in 2006 and 
for 8,000 more detention beds in 2006. Yet, the President's 
budget calls for only 143 new ICE investigators, and 1,920 
detention beds, both less than 20% of the number we authorized.
    I am deeply disappointed by the Administration's budget. It 
would be a horrible lapse of duty for this Subcommittee to 
allow a lack of resources to facilitate the embedding of 
terrorists and criminals in our country. I will do my utmost to 
ensure that the promise that Congress made to the American 
people in last year's legislation will be fulfilled.
    The witnesses at today's hearing will examine the need for 
the increases set forth in the Intelligence Reform and 
Terrorism Prevention Act from each of their unique 
perspectives.
    At this time, the chair now recognizes the Ranking Member 
from Texas, Ms. Jackson Lee, for purposes of an opening 
statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
also welcome the witnesses, and as well, welcome new Members of 
our Committee, particularly those on the minority side. We 
welcome, as the Chairman has done, those who have been added on 
the majority side.
    We have had now a series of hearings on how we can do 
better, and frankly, we have also had a series of hearings that 
would point out some of the fractures in the system. Today, we 
talk about the ICE functions and the Bureau of Immigration and 
Customs Enforcement that was merged--had merged investigative 
functions of the former Immigration and Naturalization Service 
and the Customs Service.
    Yesterday, in Homeland Security, we had an opportunity, as 
well, to listen to the questions being raised as to whether or 
not we should reengage those two entities under one and whether 
or not the idea of the enforcement inside the United States and 
enforcement at the border should be as one.
    Frankly, Mr. Chairman, I think that in light of the needed 
requirements to up it, if you will, to ratchet it up on 
protecting this nation, I think we should leave no stone 
unturned on how we could be more effective in doing that. So 
this is a particularly important hearing as we address the 
question of whether or not we have the appropriate resources.
    The Bureau of Immigration and Customs Enforcement merged 
the investigative function of the former Immigration and 
Naturalization Service and the Customs Service, the INS 
detention and removal functions, most of the INS intelligence 
operation, the Federal Protective Service, and the Federal Air 
Marshals Service. ICE's areas of responsibility include the 
enforcement of laws dealing with the presence and activities of 
terrorists, human trafficking, commercial alien smuggling 
operations, document fraud, and drug trafficking, and many 
important aspects of their work have been successful.
    Just recently, for example, we were able to applaud 
Operation Predator, which was able to bring in 5,000 arrests 
since 2003 on the question of those who are non-citizens who 
have come into this country and who have been predators against 
our children.
    Also, for instance, ICE investigators conducted an 8-month 
investigation last year of two men who were selling false 
identity documents to members of terrorist organizations. The 
ICE investigators developed such a strong case against these 
individuals that they pleaded guilty on February 28, 2005, to a 
charge of involvement in a conspiracy to sell false documents 
to purported members of Abu Sayyaf, a Philippines-based group 
that has been designated as a foreign terrorist organization.
    The Intelligence Reform and Terrorism Prevention Act of 
2004 authorized 800 new ICE investigators for FY 2006 through 
FY 2010. The President's budget only requests funding for 143 
new ICE investigators for FY 2006, which is only 17 percent of 
the authorized number. We need all of the 800 additional ICE 
investigators authorized by the Intelligence Reform and 
Terrorism Prevention Act.
    And with a little lightness, Mr. Chairman, maybe the 
Administration was simply trying to tease us, to egg us on, to 
see if we had the stomach to do what is right, and that means 
that we need to fully fund the 800 additional ICE 
investigators. Let's take the bait, if you will, accept the 
challenge, and do what we need to do.
    The National Intelligence Reform and Terrorism Prevention 
Act also authorized 8,000 new detention beds each year from FY 
2006 through 2010. The President, however, has requested 
funding for 1,920 beds for FY 2006, which is only 24 percent of 
the authorized number. Mr. Chairman, I know that you are headed 
to the border, at least a portion thereof. I have spent some 
time at the border with Congressman Ortiz. I saw what the need 
was and the crisis--hard-working men and women who understand 
the needs of securing the border, but more importantly, 
understanding the needs of retaining those who have entered 
this country illegally. They cannot do their job without the 
full funding of these detention beds and the recognition that, 
in fact, we have a responsibility to provide them with the 
necessary resources.
    Now, to have 8,000 detention beds also means that we must 
have a process that recognizes the need for an expedited 
response to individuals who are detained. It doesn't make any 
sense to detain individuals for months and months, separating 
them from their family and not allowing them to petition their 
rights in the immigration judicial system. We must fix that, as 
well.
    Again, these beds are necessary to provide appropriate 
detention facilities for asylum seekers and to detain people 
who might be dangerous, but as I said, we must find a pathway, 
a justice system that allows those asylum systems to be heard 
as quickly as possible.
    In a recently issued report on asylum seekers and expedited 
removal proceeding, the U.S. Commission on International 
Religious Freedom provides information about 19 detention 
facilities that house asylum seekers. The facilities are 
located in 12 different States and include six county jails, 15 
Homeland Security facilities, 17 private contract facilities, 
and one special county-run detention facility for alien 
families. These institutions housed more than 70 percent of all 
aliens subject to expedited removal in FY 2003. Overall, they 
house approximately 5,585 alien men and 1,015 alien women. More 
than half of the facilities reported that they house asylum 
seekers with criminals. Among the eight facilities that housed 
criminal inmates, seven permitted some contact between them and 
the detained alien. In four of the facilities, this included 
shared sleeping quarters.
    Mr. Chairman, I think all of us would admit that is 
inappropriate and it must stop. The 8,000 beds are necessary 
not only for detention, but simply for justice and what is 
fairness. In only one of these facilities were the line 
officers or guards explicitly told which inmates were asylum 
seekers. Also, very few of the facilities provide any specific 
training to sensitize guards to the special needs or concerns 
of asylum seekers. Even fewer facilities provide training to 
recognize or address the special problems experienced by 
victims of torture and other forms of trauma.
    One of the oppositions, or one of the reasons for opposing 
the intelligence bill before it had been amended or before that 
language had been eliminated was the language that was included 
about asylum seekers, and one of the reasons for opposing the 
recent bill that was on the floor dealing with asylum seekers 
was it was simply inappropriate, unfair, and did not recognize 
the plight that asylum seekers face.
    All the facilities but five reported that they used strip 
or other kinds of invasive searches on detainees as a standard 
procedure during the time they were processed into the 
facility. All but three reported using strip or invasive 
searches for security-related reasons during the detainees' 
subsequent confinement. Virtually all of the facilities 
reported using physical restraints. For example, the Tri-County 
Jail in Illinois used handcuffs, belly chains, and leg shackles 
when detainees left the facility. Only a few of the facilities 
provide the detainees with access to private, individual 
toilets, and only slightly more of our facilities were 
detainees able to shower privately. The overwhelming majority 
of the facilities require detainees to wear uniforms.
    Some might say these individuals are undocumented and 
illegal, but what I would simply say to those in this country, 
to our Committee Members, that we can do better. America is 
known to do better and we would want to be treated in such a 
way if we were detained elsewhere around the world. It is what 
you do within your own boundaries and, as well, in what you do 
in upholding your values that speaks more volumes to the world.
    It is unconscionable that we are treating asylum seekers 
this way. They have not been sentenced to incarceration as 
convicted criminals. Why are they being treated as if they were 
convicted criminals? This is especially distressing in view of 
the fact that some of them have come to the United States 
seeking refuge from torture and other forms of oppression and 
abuse.
    The failure to provide adequate detention facilities does 
not just result in inappropriate incarceration of asylum 
seekers. It also results in the release of aliens who might be 
a threat to our national security. Although a large number of 
aliens cross the border between Mexico and the United States 
illegally, the U.S. Border Patrol catches many of them and 
returns many of them to Mexico.
    The Mexican government, however, usually does not accept 
aliens from other countries. These aliens are referred to as 
``other than a Mexican,'' or OTMs. Due to a shortage of 
detention beds, these individuals cannot be detained. According 
to information from the Congressional Research Service, USBP 
released 30,000 OTMs last year on their own recognizance and 
many of them do not return for trial. Most of the OTMs are 
ordinary people who come to the United States to seek a better 
life for themselves and their families.
    There is a concern, however, that has been expressed by my 
colleague, Congressman Ortiz, that terrorists can use these 
fractures in our system, these weaknesses in our border 
security as a way to enter the country to do harm. Also, we 
have a growing number of MS-13, Mara Salvatrucha, gangs in our 
major cities and members of these bloody, violent Central 
American gangs are entering the United States as OTMs.
    Mr. Chairman, you mentioned the desire to fix our 
immigration system and you also mentioned the fact that visas 
can be abused. You are absolutely right, but I don't think we 
should use a blanket concern about a broken immigration system 
and our borders being porous to not recognize the validity of 
student visas. Even universities throughout America, some in 
your State and district, I know, find the student visa program 
and other visa programs to be helpful in the intellectual 
exchange and international exchange and the positiveness of 
working together around the world, collaborating to fight 
terror, to promote peace, to educate and understand each 
other's customs and values. It is important to have a system 
like that that works in a positive sense.
    But we must fix our broken immigration system and provide 
adequate lawful access to the United States. The population of 
undocumented aliens and the number of aliens who come here 
illegally will be reduced greatly. Then it will be easier to 
deal with enforcement problems. We can even find a way to re-
merge, if you will, these two entities, internal defense and 
external defense. But we need many more detention beds, and 
might I add, we need 10,000 Border Patrol Agents for the 
Northern and Southern border.
    In the meantime, however, we need additional ICE 
investigators and more detention beds. We also need to stop the 
inhumane practice of housing asylum seekers in penal settings 
where they are treated as incarcerated criminals.
    I look forward to working with you, Mr. Chairman, on these 
very important issues.
    Mr. Hostettler. I thank the gentlelady, and without 
objection, all Members may insert their opening statements into 
the record.
    [Whereupon, at 12:32 p.m., the Subcommittee proceeded to 
other business, to resume at 12:42 p.m.]
    Mr. Hostettler. The Subcommittee now moves to the 
consideration of the hearing before us, and will the witnesses 
please return to the panel. Thank you for your indulgence, and 
I want to thank Members of the Subcommittee for your 
attendance.
    Paul K. Martin has served as Deputy Inspector General at 
the Department of Justice since June 2003, and in the Inspector 
General's office since 1998. Mr. Martin was a founding staff 
member of the United States Sentencing Commission and served as 
its Deputy Director for 7 years. Mr. Martin received his Juris 
Doctorate from the Georgetown University Law Center in 1990 and 
a Bachelor of Arts in Journalism from the Pennsylvania State 
University in 1982. He is married to Rebekah Liu, an attorney 
in Washington, D.C., and they have three daughters.
    Mr. Michael Cutler began working for the former Immigration 
and Naturalization Service, or INS, in 1971, as an Immigration 
Inspector assigned to JFK International Airport in New York. In 
1973, he was assigned as an examiner responsible for 
adjudicating petitions filed by American citizens on behalf of 
their alien spouses. His goal in this assignment was to attempt 
to uncover fraudulent marriage scams. In August 1975, he became 
a criminal investigator for the INS. From 1988 on, he was 
assigned as the INS representative to the Unified Intelligence 
Division of the Drug Enforcement Agency. In 1991, he was 
promoted to the position of Senior Special Agent and was 
assigned to the Organized Crime, Drug Enforcement Task Force. 
His investigations of major alien drug trafficking 
organizations ultimately resulted in successful prosecutions 
for a wide variety of criminal violations. Mr. Cutler graduated 
from Brooklyn College of the City University of New York in 
1971 with a B.A. in Communications, Arts, and Sciences.
    Randy Alan Callahan is Executive Vice President of the 
National Homeland Security Council, AFGE, the union 
representing ICE Agents. He began his career in the Federal 
Government in 1996 as an Immigration Inspector in Calexico, 
California. In August 1997, he transferred to San Diego to be a 
Detention Enforcement Officer. Randy served in that capacity 
until 2003, when his position was reclassified and called 
Immigration Enforcement Agent. Randy served 14 years in the 
U.S. Army and Army Reserves and is a Desert Storm veteran. He 
became a union steward in July 1998 and quickly rose through 
the ranks, becoming Western Region Vice President in August of 
2000, Secretary-Treasurer in 2002, and Executive Vice President 
in 2004.
    Professor Craig Haney is currently a professor in the 
Psychology Department at the University of California at Santa 
Cruz. He is most well known for his work as one of the 
principal researchers on the highly publicized Stanford prison 
experiment in 1971. Professor Haney has published widely on 
prison-related topics in a variety of scholarly journals. Craig 
Haney was appointed by the United States Commission on 
International Religious Freedom to serve as an expert on 
detention issues. He received his Ph.D. in psychology and J.D. 
degrees from Stanford University in 1978.
    At this time, due to the Committee's policy with regard to 
an oath, I ask the witnesses to please rise and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give before the Subcommittee will be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Martin. I do.
    Mr. Cutler. I do.
    Mr. Callahan. I do.
    Mr. Haney. I do.
    Mr. Hostettler. Thank you, and let the record reflect that 
the witnesses have responded in the affirmative.
    Gentlemen, once again, thank you for being here. We have a 
5-minute limit to our opening statements. We would hope that 
you would stay as closely to that 5 minutes as possible.
    Mr. Martin, you're recognized.

  TESTIMONY OF PAUL K. MARTIN, DEPUTY INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Martin. Thank you very much. Chairman Hostettler, 
Congresswoman Jackson Lee, and Members of the Subcommittee, I 
appreciate the opportunity to testify before the Subcommittee 
as it examines the issue of interior immigration enforcement. I 
represent the Office of the Inspector General at the U.S. 
Department of Justice where, up until March 2003, we were 
responsible for oversight of the former Immigration and 
Naturalization Service until it transferred to the Department 
of Homeland Security.
    In 1996 and again in 2003, the OIG examined the INS's 
effectiveness at removing aliens after they had received final 
orders of removal. In both reviews, we found the INS generally 
successful at removing a high percentage of aliens it had 
detained, pending their removal. However, both reviews found 
that the INS was far less effective at apprehending and 
removing non-detained aliens with final orders. In addition to 
a lack of resources, we concluded that the INS had not 
effectively implemented the recommendations in our 1996 report 
to improve its performance at removing these aliens.
    While 2 years have passed since we issued our last report 
on this subject, our findings remain relevant as this 
Subcommittee examines the appropriate level of resources to 
dedicate to interior immigration enforcement.
    Our reports found that the INS was effective at removing 
more than 90 percent of detained aliens issued final removal 
orders. However, in 1996, we found that the INS removed only 11 
percent of non-detained aliens. To improve its ability to carry 
out removals, our 1996 report recommended that the INS take 
more aggressive actions to remove non-detained aliens, 
including moving more quickly to present surrender notices to 
aliens after receiving final orders, delivering such notices to 
aliens instead of mailing them, and coordinating with other 
Government agencies to make use of all available databases for 
tracking aliens who failed to appear for removal.
    In late 2002, we initiated a follow-up review to assess the 
INS's progress in implementing these recommendations. Our 
February 2003 report found that the INS had made little 
progress in removing non-detained aliens since 1996 and had 
increased its removal rate to only 13 percent. We also found 
that the INS did not act timely, or, in some cases, did not act 
at all to correct deficiencies that were within its control. 
These included failing to follow through on a pilot project 
that targeted alien absconders for removal and failing, at 
least prior to September 11, to enter alien absconder 
information into the FBI's National Crime Information Center so 
that Federal, State, and local law enforcement agencies could 
assist in apprehending criminal absconders.
    Our 2003 review also examined three high-risk groups of 
non-detained aliens and found that the INS was ineffective at 
removing these individuals. Specifically, we found that during 
a 15-month period ending in December 2001, the INS removed only 
6 percent of non-detained aliens from countries identified by 
the State Department as sponsors of terrorism.
    In addition, although the INS had established removal of 
criminal aliens as its first priority, we found that it had 
removed only 35 percent of the non-detained criminals in our 
sample.
    And third, we found that the INS removed only 3 percent of 
the non-detained aliens who sought asylum, were denied, and had 
received final removal orders. We were concerned by the low 
removal rate for unsuccessful asylum seekers because several 
individuals convicted of terrorist acts in the United States 
requested asylum as part of their efforts to remain in this 
country.
    As a result of these continuing problems, our February 2003 
report made eight additional recommendations to the INS to help 
improve its ability to remove aliens issued final orders. The 
INS did not respond to these recommendations before the agency 
was transferred to the DHS in March 2003. Since then, the DHS 
Inspector General's office has had the responsibility for 
monitoring the response to these recommendations.
    Oversight of the Federal Government's immigration 
enforcement efforts now rests with the DHS Inspector General. 
We, therefore, cannot provide the Subcommittee with definitive 
information about the DHS's current progress in removing aliens 
issued final orders. However, we believe that effective 
interior enforcement remains an important issue and the DHS, as 
well as this Subcommittee and the DHS IG's Office, should 
continue to focus attention on this important area.
    This concludes my prepared statement. I would be happy to 
answer any questions.
    Mr. Hostettler. Thank you, Mr. Martin.
    [The prepared statement of Mr. Martin follows:]

                  Prepared Statement of Paul K. Martin
    Chairman Hostettler, Congresswoman Jackson Lee, and Members of the 
Subcommittee on Immigration, Border Security, and Claims:

                            I. INTRODUCTION

    I appreciate the opportunity to testify before the Subcommittee as 
it examines the level of resources dedicated to interior immigration 
enforcement. I represent the Office of the Inspector General (OIG) at 
the Department of Justice (DOJ) where, up until March 2003, we were 
responsible for oversight of the former Immigration and Naturalization 
Service (INS) until it transferred from the DOJ to the Department of 
Homeland Security (DHS).
    The 2000 census estimated that as many as 8 million unlawful aliens 
reside in the United States. That total includes individuals who 
entered the United States without proper documentation and those who 
entered legally but overstayed or violated their visas or terms of 
entry.
    In 1996 and in 2003, the OIG examined the INS's effectiveness at 
removing aliens after they had received final orders of removal from 
the Executive Office for Immigration Review (EOIR).\1\ In both reviews, 
we found that the INS removed more than 90 percent of aliens it 
detained pending their removal.\2\ However, both reviews also found 
that the INS was far less effective at apprehending and removing non-
detained aliens who had received final orders to leave the country. In 
both reviews, no more than 13 percent of the non-detained aliens in our 
samples left the country. Importantly, the 2003 review found that non-
detained aliens in high-risk groups such as those from countries 
designated as state sponsors of terrorism and aliens with criminal 
records generally were not removed. In addition, we found that the INS 
had made little progress between 1996 and 2003 in implementing 
recommendations to improve its ability to remove aliens issued final 
orders of removal.
---------------------------------------------------------------------------
    \1\ The EOIR, a DOJ component, is responsible for adjudicating 
immigration cases at the trial and appellate levels.
    \2\ See U.S. Department of Justice, Office of the Inspector 
General, Immigration and Naturalization Service's Deportation of Aliens 
After Final Orders Have Been Issued (Report No. I-96-03), March 1996, 
and The Immigration and Naturalization Service's Removal of Aliens 
Issued Final Orders (Report No. I-2003-004), February 2003.
---------------------------------------------------------------------------
    Because of a variety of factors, it is clear that detaining every 
alien undergoing a removal proceeding is not practical or desirable. 
However, we reviewed the INS's experience in removing aliens who had 
been issued final orders of removal after their cases had been 
adjudicated and finalized, including all appeals. We concluded that the 
INS did not effectively use all means at its disposal to improve its 
performance at removing aliens who were not detained. While two years 
have passed since we issued our last report and the INS moved to the 
DHS, the reasons for the agency's historical inability to remove non-
detained aliens, as documented in our reports, and the possible 
approaches we identified for improving its capability in this area 
remain relevant as the Subcommittee examines the appropriate level of 
resources to dedicate to interior immigration enforcement.

            II. REMOVAL OF UNLAWFUL ALIENS WITH FINAL ORDERS

    When unlawful aliens are apprehended, the removal process begins 
with the filing of charging documents with the EOIR. After court 
hearings are scheduled with the EOIR, the INS--now the Bureau of 
Immigration and Customs Enforcement (ICE) in the DHS--mails information 
about the dates, times, and locations of the hearings to aliens. To 
ensure that aliens that could pose a danger are removed, the INS was 
required to detain certain categories of aliens. In September 1996, the 
Illegal Immigration Reform and Immigrant Responsibility Act required 
that aliens with criminal backgrounds, those deemed a flight risk, 
those with mental illnesses, and those with dangerous physical 
illnesses be detained pending their removal. Other aliens are ``non-
detained,'' the term used to describe aliens who either are not taken 
into custody or are released from custody while their immigration cases 
are pending. At the removal hearings, an Immigration Judge adjudicates 
the alien's case and either allows the alien to remain in the United 
States or orders the alien removed. Aliens may appeal EOIR rulings to 
the Board of Immigration Appeals and then to federal courts.
    The cases we reviewed for our 1996 and 2003 reports included aliens 
who either had exhausted their appeals or did not appeal the initial 
court decisions. Therefore, the removal orders for these aliens were 
final and could be carried out by the INS. Both reports found that the 
INS was effective at removing more than 90 percent of detained aliens 
issued final removal orders by the EOIR. The reasons for allowing the 
other detained aliens to remain in the United States included political 
or humanitarian concerns, grants of administrative relief, and the 
INS's inability to obtain necessary travel documents from the aliens' 
home countries.
    However, both of our reviews found that the INS was far less 
effective at apprehending and removing non-detained aliens ordered to 
leave the country. In 1996, only 11 percent of non-detained aliens who 
had received final orders were removed. In some cases, the INS did not 
pursue removal because of political or humanitarian concerns, but in 
most cases the aliens had moved or failed to appear for removal after 
issuance of final orders (i.e., absconded), and the INS was unable to 
find them. Delays in transmitting the aliens' final removal orders from 
the EOIR to the INS may have contributed to the INS's difficulty in 
locating aliens. In addition, the INS did not always act promptly to 
carry out removals, and these delays also may have contributed to 
making it difficult to locate aliens for removal.
    To improve the INS's ability to carry out removals, in 1996 the OIG 
recommended that the INS take more aggressive actions to remove non-
detained aliens, such as:

        <bullet>  Moving more quickly to present surrender notices to 
        aliens after receiving final orders;

        <bullet>  Delivering surrender notices instead of mailing them 
        to aliens;

        <bullet>  Taking aliens into custody at hearings when final 
        orders are issued;

        <bullet>  Pursuing aliens who fail to appear and reviewing 
        procedures for closing cases for aliens who fail to appear; and

        <bullet>  Coordinating with other government agencies to make 
        use of all databases available for tracking aliens who fail to 
        appear.

    In late 2002, we began a follow-up review to assess the status of 
the INS's efforts to remove aliens with final orders and the progress 
of the INS's actions to implement the recommendations in our 1996 
report. Our February 2003 report found that the INS had made little 
progress in removing non-detained aliens since 1996, improving its rate 
of removal to only 13 percent. We also examined three high-risk groups 
of non-detained aliens and found that the INS was ineffective at 
removing these individuals. The groups we examined were:

        <bullet>  Aliens from countries identified as sponsors of 
        terrorism. In 2001, the Department of State identified seven 
        countries as state sponsors of terrorism: Cuba, Iran, Iraq, 
        Libya, North Korea, Sudan, and Syria. We found that from 
        October 1, 2000, to December 31, 2001, the INS removed only 6 
        percent of the non-detained aliens from these countries. 
        Further, half of these removals occurred in the 3\1/2\ months 
        after the September 11, 2001, terrorist attacks.

        <bullet>  Aliens with criminal records. Although the INS 
        established the removal of criminal aliens as its first 
        priority in its 1999 Interior Enforcement Strategy, we found 
        that it had removed only 35 percent of the non-detained 
        criminals in our sample.

        <bullet>  Aliens denied asylum. We found that the INS removed 
        only 3 percent of the non-detained asylum seekers who received 
        final removal orders. We were concerned by the low removal rate 
        for unsuccessful asylum seekers because this group may include 
        potential terrorists. Several individuals convicted of 
        terrorist acts in the United States requested asylum as a part 
        of their efforts to remain in the country.

    Because of its ineffectiveness at removing aliens with final 
orders, as of June 2002 the INS estimated that a backlog of about 
355,000 aliens remained in the United States with unexecuted removal 
orders. According to the INS, at the rate that the INS removed aliens 
in 2002 that backlog represented a 20- to 30-year workload. During our 
2003 review, INS officials acknowledged that they did not have the 
resources to mount a substantial effort to locate and remove the large 
number of aliens who had absconded.
    We also found that the INS had done little to timely or fully 
implement the recommendations we made in 1996 to improve its removal 
rate of aliens issued final orders. I will now briefly describe the 
INS's lack of progress in addressing the recommendations from our 1996 
report before discussing other factors that affect alien removals.

         III. THE INS FAILED TO TAKE TIMELY CORRECTIVE ACTIONS

    While some factors regarding removal of aliens issued final orders, 
such as resource limitations, were wholly or partially outside the 
control of the INS, our reviews found that the agency did not act to 
correct factors that were within its control. In response to our 1996 
report, the INS agreed to implement a variety of specific actions we 
recommended that would improve its effectiveness at removing non-
detained aliens. However, in our 2003 follow-up review we found that 
the INS had delayed or failed to complete the implementation of these 
corrective actions and had failed to significantly improve its removal 
of non-detained aliens between 1996 and 2002.
    Pilot absconder removal project. In response to our 1996 report, 
the INS agreed to conduct field tests in which alien absconders would 
be targeted for removal. The INS later reported to us that a limited 
duration pilot had been conducted with positive results and that the 
INS intended to conduct two additional field tests before expanding the 
program. However, when we conducted our 2003 follow-up review, the INS 
was unable to provide any information regarding the pilot projects, the 
implementation of the program in response to the pilot projects, or 
even to locate anyone who could remember the pilot program.
    Resources for apprehending absconders. In response to our 1996 
report, the INS agreed to use a fiscal year (FY) 1996 budget 
enhancement of $11.2 million to fund 142 positions to remove alien 
absconders. It also agreed to use its Law Enforcement Support Center to 
enter alien absconder information into the National Crime Information 
Center and develop an automated list of criminal absconders so that 
federal, state, and local law enforcement agencies could assist in 
apprehending them. However, the INS did not establish absconder removal 
teams or develop an automated list of absconders until after the 
September 11 terrorist attacks. Moreover, the INS was unable to 
document how it used the $11.2 million budget enhancement it received 
in FY 1996 for this program.
    Rulemaking to improve notification methods. In 1996 we found that 
the INS was not effective at notifying aliens to surrender for removal 
and therefore we recommended that the INS present surrender notices to 
aliens more promptly after the aliens had received their final orders. 
We also recommended that the INS deliver surrender notices instead of 
mailing them to aliens. After agreeing to improve its methods of 
notifying aliens of their duty to surrender for removal and publishing 
a proposed rule in 1998 that would have enhanced its ability to remove 
aliens expeditiously if they failed to appear, the INS allowed the 
rulemaking to lapse. After the September 11 attacks, the INS revived 
and expanded the rulemaking titled Requiring Aliens Ordered Removed 
from the United States to Surrender to the Immigration and 
Naturalization Service for Removal. In preparation for this hearing, we 
checked with the EOIR on the status of the rulemaking and were told 
that as of March 2005 the rule still was not final.

            IV. RECOMMENDATIONS IN OUR FEBRUARY 2003 REPORT

    As a result of the continued problems we found in our follow-up 
review, our February 2003 report made eight additional recommendations 
to the INS to improve its ability to remove aliens issued final orders 
of removal. For example, we recommended that the INS establish annual 
goals for apprehending and removing absconders and other non-detained 
aliens with final orders. In addition, we recommended that the INS 
identify the resources required to achieve its annual and strategic 
performance goals and track its resources to ensure they were used as 
intended.
    Because of the data problems we encountered in reviewing the INS's 
electronic records, we also recommended that the INS establish a 
program to correct missing and inaccurate data and work with the EOIR 
to reconcile discrepancies between INS and EOIR data systems. We 
recommended that the INS work with the EOIR to implement a shared data 
system for case tracking, similar to the Interagency Border Inspections 
System, to identify and process aliens with final orders.\3\ Finally, 
we recommended that the INS improve the utility of its website for 
informing the public about high-risk absconders and to facilitate 
reporting of leads on absconders.
---------------------------------------------------------------------------
    \3\ The Interagency Border Inspections System is an interagency 
effort by the INS, U.S. Customs Service (now part of ICE), Department 
of State, and Department of Agriculture to improve border enforcement 
and controls and to facilitate the inspections of applicants for 
admission to the United States.
---------------------------------------------------------------------------
    The INS did not respond to these recommendations before the agency 
was transferred to the DHS in March 2003. Since March 2003, the DHS 
Inspector General's Office has had the responsibility for tracking and 
monitoring the DHS's response to these recommendations. In preparation 
for this hearing, we asked the DHS OIG about the status of the response 
to these recommendations. The DHS OIG provided us with information that 
indicates that ICE has followed up on several of our recommendations. 
According to a March 2004 DHS report on management challenges, ICE 
developed a six-year plan to align its long-term detention and removal 
strategies with the resources required to fulfill those missions. ICE 
also created fugitive operations teams, issued new guidance to ensure 
administrative case closures were not abused, was working to replace 
its electronic case tracking system, and was working with the EOIR to 
improve the quality of data in its system. Finally, ICE established a 
``Most Wanted'' section on its website.

               V. OTHER FACTORS AFFECTING ALIEN REMOVALS

    In our two reviews, we also identified a variety of factors that 
limited the INS's effectiveness at removing aliens with final orders. 
Some of these factors were within the INS's control, but others were 
not. For example, limitations in resources are an issue in addressing 
the detention and removal of aliens issued final orders. The resource 
limitations that hindered the INS's removal of aliens included a lack 
of detention space, limited numbers of detention officers, and too few 
investigators and special agents to locate aliens in order to carry out 
the removals. According to the DOJ's FY 2001 Performance Report, the 
INS continued to face a ``severe shortage of bed space and personnel to 
effectively handle the processing and removal of aliens in immigration 
proceedings.'' \4\ Although we have not reviewed this issue since the 
INS left the DOJ two years ago, February 2004 congressional testimony 
by a DHS official indicated that ICE had a daily detention population 
of approximately 21,000 aliens.
---------------------------------------------------------------------------
    \4\ The DOJ's FY 01 Performance Report/FY 02 Revised Final 
Performance Plan/FY 03 Performance Plan.
---------------------------------------------------------------------------
    We note that the DHS appears to have directed some additional 
resources to removing aliens with final orders. According to the DHS 
Office of Detention and Removal's Strategic Plan for 2003 to 2012, the 
agency has dedicated 40 officers to its National Fugitive Operations 
Program/
    Absconder Apprehension Initiative. However, the plan acknowledges 
that the staffing level is ``woefully inadequate to achieve the goal'' 
of eliminating 100 percent of the backlogged unexecuted orders of 
removal.
    Another factor we found that affected the INS's ability to remove 
aliens was the lack of complete and accurate data, especially correct 
addresses for aliens. Our own reviews, as well as Government 
Accountability Office and INS internal audits conducted between 1996 
and 2003, found that the INS had serious and continuing problems with 
data reliability that impaired its ability to process aliens for 
removal. For example, in our 2003 review we found errors in aliens' 
names, missing cases, nationality errors, and incorrect case file 
numbers in 11 percent of the files we reviewed from the group of aliens 
from states that sponsor terrorism.
    In addition, during our field work for our 1996 and 2003 reports, 
we found that the INS and the EOIR were unable to share information on 
immigration cases automatically. As a result, according to an INS 
statistician we interviewed for our 2003 report, an estimated 20 
percent of the total cases in INS and EOIR systems did not contain 
matching data. Moreover, 195,000 files in the EOIR's system did not 
appear in the INS's system. As I noted earlier, the DHS has reported 
that ICE is working to correct its data problems.
    External factors limiting removals include the quality of 
diplomatic relations between the United States and other nations. The 
INS was unable to remove aliens with final orders if they were from 
countries designated by the President for Deferred Enforced Departure. 
Examples of these cases include deferrals granted over the last 15 
years to aliens from China, Haiti, and Liberia. The INS also was unable 
to remove aliens if they had been granted Temporary Protected Status by 
the Attorney General for humanitarian or other reasons.\5\
---------------------------------------------------------------------------
    \5\ In 1990, Congress provided the Attorney General authority to 
grant Temporary Protected Status to aliens from certain countries if 
the aliens' lives would be threatened by natural disasters, armed 
conflicts, or other extraordinary conditions. As of July 2002, the 
Attorney General had granted or extended Temporary Protected Status to 
nationals from Angola, Burundi, El Salvador, Honduras, Montserrat, 
Nicaragua, Sierra Leone, Somalia, and Sudan.
---------------------------------------------------------------------------
                             VI. CONCLUSION

    Our office no longer has oversight of the federal government's 
immigration enforcement efforts. That jurisdiction now rests with the 
DHS Inspector General's Office. We therefore cannot provide the 
Subcommittee with definitive information regarding whether the actions 
taken by ICE during the past two years fully implement our February 
2003 recommendations or the extent to which ICE has made progress in 
removing aliens issued final orders. However, we believe that effective 
interior enforcement remains an important issue, and we believe that 
the DHS--as well as this Subcommittee and the DHS OIG--should continue 
to focus attention on this important area.
    This concludes my prepared statement. I would be pleased to answer 
any questions.

    Mr. Hostettler. Mr. Cutler, you are recognized for 5 
minutes.

  TESTIMONY OF MICHAEL W. CUTLER, FORMER I.N.S. SPECIAL AGENT

    Mr. Cutler. Thank you, Mr. Chairman. Chairman Hostettler, 
Ranking Member Jackson Lee, distinguished Members of Congress, 
members of the panel, ladies and gentlemen, I welcome this 
opportunity to provide testimony today on the critical issue of 
interior enforcement resources for the immigration laws.
    A country without secure borders can no more stand than can 
a house without walls. The task of securing America's borders 
falls to the dedicated men and women of CBP and ICE. These law 
enforcement officers are often put in harm's way as they try to 
prevent aliens from gaining unauthorized entry into our 
country. They are not succeeding in this vital mission, as 
evidenced by the millions of illegal aliens who currently live 
within our nation's borders today. This is not because of 
failings which the employees of ICE or CBP bear the 
responsibility, but rather because our Government has 
consistently failed to provide them with the resources that 
they need to make certain that this basic job gets done.
    The 9/11 Commission ultimately came to recognize the 
critical nature of immigration law enforcement where the war on 
terror is concerned. In fact, page 49 of the report entitled, 
``9/11 and Terrorist Travel: A Staff Report of the National 
Commission on Terrorist Attacks Upon the United States,'' 
contains a sentence that reads, and I quote, ``Thus abuse of 
the immigration system and a lack of interior immigration 
enforcement were unwittingly working together to support 
terrorist activity,'' unquote.
    Acting on recommendations of the Commission, Congress 
authorized the expenditure of funds to enable 800 new special 
agents to be hired to enforce the immigration laws from within 
the United States for each of the next 5 years. I would 
actually argue that this number of new agents would not be 
enough, especially considering the findings of the 9/11 
Commission staff report that I have just quoted, and, 
therefore, I am frankly at a loss to understand why the 
Administration is not requesting at least as many new special 
agents as Congress authorized rather than the requested funding 
for the hiring of only 143 new special agents. I firmly believe 
that this represents a false economy and jeopardizes our 
nation's security.
    Clearly, the effective enforcement of the immigration laws 
from within the interior of the United States is critical for 
our nation to gain control of its borders and to protect its 
citizens from aliens who come to this country to engage in 
criminal activities and terrorism.
    Our nation's inability and apparent unwillingness to 
enforce the immigration laws has caused our nation to pay a 
heavy price. As we know, on September 11, 2001, terrorist 
attacks were launched from within our borders by aliens who 
exploited various weaknesses in the immigration system. We must 
not think of the attacks of September 11 as being a single 
attack, nor should we think of the attacks as being consisting 
of three attacks, the destruction of the World Trade Center, 
the destruction of a segment of the Pentagon, and the downing 
of United Airlines Flight 93 in that field in Pennsylvania. 
Rather, I would ask that you think of those attacks as being 
thousands of separate attacks because each of the nearly 3,000 
lives that were so violently and horrifically ended was a 
precious and irreplaceable life. The loss of these lives to 
their families, loved ones, and friends has forever altered 
their lives, as well. Additionally, thousands more people were 
grievously injured, both emotionally as well as physically.
    The victims of 9/11 came from all over the United States 
and from other countries. No American city is safe if any 
American city is attacked, and I would like to point to that 
map that we've put up over there that shows how many States 
suffered how many casualties on that day, on September 11, 
2001, and I would love to see that remain on permanent display 
somewhere as a reminder to Members of Congress that it was the 
entire country, not just New York and Washington, that were 
attacked on that day.
    The specter of terrorist attacks is not the only price to 
be paid for our failure to secure our borders. Illegal 
immigration impacts more aspects of this country than does any 
other issue. It impacts everything from education, the economy, 
health care, criminal justice, and national security. In fact, 
it is estimated that some 30 percent of the Federal inmate 
population is comprised of aliens. It is not unreasonable to 
say that more people lose their lives each year as a result of 
crimes committed by criminal aliens within our borders than 
were killed on that horrific day in September of 2001.
    When he testified before the Senate Select Committee on 
Intelligence last month, FBI Director Robert Mueller testified 
that he is very concerned about the lack of data on a network 
of al Qaeda sleeper cells in the United States. He went on to 
say, and I quote, ``finding them is a top priority for the FBI, 
but it's also one of the most difficult challenges,'' unquote.
    Sleeper cells are not like cicadas. They do not simply slip 
into our country and then burrow into a hole for months or 
years awaiting instructions to emerge to carry out a terrorist 
attack. Sleepers are, in fact, aliens who, upon entering our 
country, manage to hide in plain sight by finding a job, 
attending a school, or managing to hide in plain sight by doing 
things that do not call attention to them. Someone once said 
that an effective spy is someone who could not attract the 
attention of a waitress at a greasy spoon diner, and the same 
could be said of an effective terrorist.
    It is, therefore, vital that we regain control of our 
borders and the entire immigration bureaucracy and enforcement 
program if we are to protect our nation against terrorists and 
criminals, and this requires that we have an adequate number of 
law enforcement agents dedicated to this critical mission.
    It has been estimated that more than 40 percent of the 
illegal aliens in the United States did not evade the valiant 
Border Patrol Agents who stand watch on our nation's border, 
but rather strolled through ports of entry, having been 
inspected by the process and then went on to hide in plain 
sight within our country, and many aliens find this to be a 
relatively easy endeavor. And as you know, I speak from 
experience, having been an immigration inspector at JFK 
Airport. Additionally, the visa waiver program further hampers 
the inspections process.
    There's another critical element to the interior 
enforcement of the immigration laws that's seldom discussed, 
the investigation of applications for immigration benefits to 
uncover fraud, which, according to a GAO report issued 3 years 
ago, is a pervasive problem within the immigration benefits 
program. A terrorist bent on attacking the United States would 
most want three things to attack our nation: Money, a weapon of 
mass destruction, and a U.S. passport. The passport enables an 
alien to easily travel across our borders, but also across the 
borders of other countries. And, as we now know, the 9/11 
commission found that the ability to travel freely and 
extensively was essential to the terrorists of 9/11 as they 
prepared to attack us.
    Aliens who succeed in acquiring resident alien status can 
more readily embed themselves in our country and ultimately 
attain U.S. citizenship, making them eligible for that highly 
coveted U.S. passport. Immigration fraud enables aliens to 
avail themselves of this opportunity through deception.
    While technology can and should play a role in enforcing 
the laws and helping to lend integrity to these processes, we 
must remember that law enforcement is a labor-intensive 
activity. Computers don't arrest law violators, law enforcement 
officers do. We can use computers for data mining to help 
uncover fraud, but again, it is the agent conducting field 
investigations who is most likely to uncover fraud or other 
criminal activities. While technology can be a force 
multiplier, in the end, without sufficient numbers of dedicated 
law enforcement officers and appropriate resources, including 
sufficient detention facilities, the job will simply not get 
done.
    Mr. Hostettler. Mr. Cutler, could you summarize the 
remainder of your testimony?
    Mr. Cutler. Sure. The one point that I would make is that 
Vice President Cheney aptly compared 9/11 to what happened on 
December 7. After December 7, this nation made a tremendous 
effort to build airplanes, battleships, nuclear weapons, 
whatever was needed to get the job done. The efforts that we do 
today must be no less intensive to wage war on the terrorists 
who are just as intent on destroying us today.
    I know there's a clip. I don't know if this would be the 
time to do it or not. But CNN did a piece that I think relates 
to what we're doing today and I would like the opportunity for 
the Committee to see it.
    Mr. Hostettler. Without objection.
    Mr. Cutler. Okay. Thank you. Thank you, Mr. Chairman.
    [A videotape was shown.]
    Mr. Hostettler. I thank the gentleman.
    Mr. Cutler. I just wanted to thank CNN for providing that 
and I look forward to your questions.
    [The prepared statement of Mr. Cutler follows:]

                Prepared Statement of Michael W. Cutler

    Chairman Hostettler, Ranking member Jackson Lee, distinguished 
members of Congress, members of the panel, ladies and gentlemen. I 
welcome this opportunity to provide testimony today on the critical 
issue of interior immigration enforcement resources.
    A country without secure borders can no more stand than can a house 
without walls. The task of securing America's borders falls to the 
dedicated men and women of CBP and ICE. These law enforcement officers 
are often put in harm's way as they try to prevent aliens from gaining 
unauthorized entry into our country. They are not succeeding in this 
vital mission as evidenced by the millions of illegal aliens who 
currently live within our nation's borders. This is not because of 
failings for which the employees of ICE or CBP bear the responsibility, 
but rather because our government has consistently failed to provide 
them with the resources they need to make certain that this basic job 
gets done.
    The 9/11 Commission ultimately came to recognize the critical 
nature of immigration law enforcement where the ``War on Terror'' is 
concerned. In fact, page 49 of the report entitled, ``9/11 and 
Terrorist Travel, A Staff Report of the National Commission on 
Terrorist Attacks Upon the United States'' contains a sentence that 
reads, ``Thus abuse of the immigration system and a lack of interior 
immigration enforcement were unwittingly working together to support 
terrorist activity.'' This page incidentally is contained in the 
chapter entitled, ``Terrorist Travel and Embedding Tactics.'' Acting on 
recommendations of the Commission, Congress authorized the expenditure 
of funds to enable 800 new special agents to be hired to enforce the 
immigration laws from within the United States for each of the next 5 
years. I would actually argue that these new agents would not be enough 
especially considering the findings of the 9/11 Commission staff report 
I quoted. Therefore I am frankly at a loss to understand why the 
administration is not requesting at least as many new special agents as 
Congress authorized rather than the requested funding for the hiring of 
only 143 new special agents. I firmly believe that this represents a 
false economy and jeopardizes our nation's security.
    Clearly the effective enforcement of the immigration laws from 
within the interior of the United States is critical for our nation to 
gain control of its borders and to protect our citizens from aliens who 
come to this country to engage in criminal activities and terrorism.
    Our nation's inability and apparent unwillingness to enforce the 
immigration laws has caused our nation to pay a heavy price. As we 
know, on September 11, 2001 terrorist attacks were launched within our 
borders by aliens who exploited various weaknesses in the immigration 
system. We must not think of the attacks of September 11 as being a 
single attack, nor should we think of the attacks as consisting of 
three attacks; the destruction of the World Trade Center, the 
destruction of a segment of the Pentagon and the downing of United 
Airlines Flight 93 in that field in Pennsylvania. I would ask that you 
think of those attacks as being thousands of separate attacks, because 
each of the nearly 3,000 lives that was so violently and horrifically 
ended was a precious and irreplaceable life. The loss of these lives to 
their families, loved ones and friends has forever altered their lives 
as well. Additionally, thousands more people were grievously injured, 
both emotionally as well as physically. The victims of 9/11 came from 
all over the United States and from many countries. No American city is 
safe if any American city is attacked. However, the specter of 
terrorist attacks is not the only price to be paid for our failure to 
secure our borders. Illegal immigration impacts more aspects of this 
country than does any other issue. It impacts everything from 
education, the economy, health care and the environment to criminal 
justice and national security. It has been estimated that aliens 
account for some 30% of the inmate population in federal correctional 
institutions. It is not unreasonable to say that more people lose their 
lives each year as a result of crimes committed by criminal aliens than 
were killed on that horrific day in September of 2001.
    When he testified before the Senate Select Committee on 
Intelligence last month, FBI Director Robert S. Mueller III testified 
that he is ``very concerned'' about the lack of data on a network of al 
Qaeda ``sleeper'' cells in the United States. He went on to say that, 
``Finding them is a top priority for the FBI, but it is also one of the 
most difficult challenges.''
    Sleeper agents are not like cicadas; they do not simply slip into 
our country and then burrow into a hole for months or years awaiting 
their instructions to emerge to carry out a deadly terrorist attack. 
Sleepers are, in fact, aliens who, upon entering our country, manage to 
hide in plain sight by finding a job, attending a school or doing other 
such ``ordinary things'' that do not call attention to them. Someone 
once said that an effective spy is someone who could not attract the 
attention of a waitress at a greasy spoon diner. The same can be said 
of an effective terrorist. It is vital that we regain control of our 
borders and the entire immigration bureaucracy and enforcement program 
if we are to protect our nation against terrorists and criminals. This 
requires that we have an adequate number of law enforcement officers 
who are dedicated to this critical mission.
    I have read estimates that more than 40% of the illegal aliens in 
the United States did not evade the valiant Border Patrol agents who 
stand watch on our borders, but rather strolled through ports of entry 
intent on violating our laws. Many aliens find this to be a relatively 
easy endeavor. As you know, I speak from experience, having spent four 
years as an Immigration Inspector assigned to John F. Kennedy 
International Airport in New York before I became a Special Agent for 
the former INS. The inspectors are supposed to conduct an inspection of 
an arriving alien in about one minute. In that brief period of time the 
inspector is supposed to examine the arriving alien's passport, compare 
the alien's name against a watch list to make certain that the person 
standing before him is not prohibited from entering the United States 
and then ask a few questions to try to determine the intentions of the 
alien seeking to enter our country. Of course, if serious questions are 
raised the inspector has the option of referring the alien to a section 
known as ``Secondary'' where a more intensive effort can be made to 
determine whether or not the alien in question should be admitted, but 
the pressure is on to quickly move the lines of arriving aliens. 
Additionally, the Visa Waiver Program further hampers the inspection 
process.
    An adequate number of special agents is needed to back up the 
Border Patrol and the CBP inspectors.
    There is another critical element to the interior enforcement of 
the immigration laws that is seldom discussed. The investigation of 
applications for immigration benefits to uncover fraud, which according 
to a GAO report issued three years ago, was a pervasive problem within 
the immigration benefits program. A terrorist bent on attacking the 
United States would most want three things in order to attack our 
country; money, a weapon of mass destruction and a United States 
passport to facilitate travel not only across the borders of the United 
States, but to also facilitate travel into many other countries. The 9/
11 Commission found, in fact, that the ability to travel freely and 
extensively was essential to the terrorists of 9/11 as they prepared to 
attack us. Aliens who succeed in acquiring resident alien status can 
more readily embed themselves in our country and ultimately attain 
United States citizenship thereby making them eligible to receive that 
highly coveted United States passport. Immigration fraud enables aliens 
to avail themselves of that opportunity through deception and places 
such aliens on the road to United States citizenship. It is therefore 
crucial that we do a far better job of making certain that the 
immigration benefits program has real integrity.
    While technology can and should play a role in enforcing the laws 
and helping to lend integrity to these processes, we must remember that 
law enforcement is a labor-intensive activity. Computers don't arrest 
law violators, law enforcement officers do. We can use computers for 
data mining to help uncover fraud, but again, it is the agent 
conducting field investigations who is most likely to uncover fraud or 
other criminal activities. While technology can be a force multiplier, 
in the end, without sufficient numbers of dedicated law enforcement 
officers and appropriate resources, including sufficient detention 
facilities, the job will simply not get done.
    During the last Presidential campaign, Vice President Cheney aptly 
compared the attacks of September 11, 2001 with the attack on Pearl 
Harbor launched on December 7, 1941. I would like to point out that 
after the attack on Pearl Harbor our nation created fleets of aircraft 
that had never existed before. We created fleets of ocean going 
warships that had never existed before and we even created nuclear 
weapons that had never been constructed before. Less than 4 years after 
that terrible attack we defeated the enemy that was bent on the 
destruction of our nation, our allies and our way of life. The 
terrorists that attacked us on September 11 are just as determined to 
destroy us today. We are in the fourth year of our ``War on terror.'' 
Our resolve to win this war must be as strong as it was for those who 
fought World War II. We must do everything reasonable to secure our 
country's borders, and the time to act is now. Our nation's future 
hangs in the balance.
    I look forward to your questions.

    Mr. Hostettler. Mr. Callahan.

TESTIMONY OF RANDY CALLAHAN, EXECUTIVE VICE PRESIDENT, NATIONAL 
                HOMELAND SECURITY COUNCIL, AFGE

    Mr. Callahan. Thank you, Mr. Chairman, Ranking Member Ms. 
Jackson Lee, Members of the Subcommittee. I'm an Immigration 
Enforcement Agent with the Department of Homeland Security's 
Bureau of Immigration and Customs Enforcement. Today, I'm here 
as the Executive Vice President of the National Homeland 
Security Council, AFGE. The Council represents approximately 
15,000 employees of the former Immigration and Naturalization 
Service, which was split into three bureaus, Customs and Border 
Protection, Immigration and Customs Enforcement, and 
Citizenship and Immigration Services.
    The purpose of today's hearing is to address the budget 
crisis at ICE, and believe me, there is a crisis. Though the 
overall budget for ICE in fiscal year 2005 increased over 
fiscal year 2004, many of the programs that had full funding in 
2004 do not have funding in 2005. ICE programs are short-
staffed due to a hiring freeze that has been in place for some 
time now.
    The Detention and Removal Operations Division alone is 
short approximately 1,300 full-time and part-time employees. If 
Detention Removal, or DRO, were a military unit, it would be 
considered nondeployable.
    All academy training for fiscal year 2005 and ICE has been 
canceled for the rest of the year. This includes training 
designed to train up to approximately 2,000 former Detention 
Enforcement Officers who were reclassified and combined with 
Immigration Agents into one position called Immigration 
Enforcement Agent. There are approximately 900 employees who 
anxiously await the opportunity to attend this training because 
it would mean they would then have the training and the 
authority to perform expanded immigration law enforcement 
functions, which would allow DRO to locate and apprehend more 
fugitive aliens at large across the country, thereby making the 
country safer.
    There are no funds available for uniforms, so uniformed 
Immigration Enforcement Agents are not able to replace worn-out 
uniforms. Worse than this is the fact that the uniform in use 
today still has the Immigration and Naturalization Service 
patch on it. I've been trying to work with ICE to develop a new 
uniform and a grooming standards policy, but ICE simply has no 
money to develop or purchase new uniforms.
    My badge still says Immigration Detention Enforcement 
Officer, a position which no longer exists, and my credentials 
still say Department of Justice. This was understandable for 
about the first six to 9 months after the creation of the 
Department of Homeland Security, but now it is just 
embarrassing.
    The most disturbing fact with regard to ICE's budget is the 
detention bed space issue. Within 5 days after today's hearing, 
I am told that ICE will no longer have enough money to detain 
suspected illegal aliens in custody. I've talked with ICE 
management about this issue and they believe they will receive 
either an approved reprogramming request to continue detention 
operations or they will receive a supplemental appropriation 
from Congress to keep over 17,000 illegal aliens, many of which 
are criminals, in custody. I have since found out that many 
offices are already reducing their adult detained population.
    What are ICE's immediate funding needs? First and foremost, 
funding needs to be immediately approved for the continued 
detention of immigration law violators. To do otherwise would 
be a violation of the public trust.
    The hiring freeze needs to be lifted. We need to train our 
Immigration Enforcement Agents and other ICE officers. We need 
new badges and credentials issued. ICE needs funds to develop a 
new uniform with the correct bureau patch on it, or eliminate 
the uniform entirely and save a million dollars a year or more.
    ICE is a bureau in financial crisis. They don't have enough 
money to hold people in custody, buy new uniforms and equipment 
for employees, or even issue badges and credentials with the 
correct Department on them. Something needs to be done to 
correct this problem.
    The union asks that you fast-track approval of funding--
funds to keep ICE operating and investigate potential 
mismanagement issues.
    On a final unrelated note, my ability to testify at this 
hearing stems from my right to be part of a union. It is an 
honor for me to be here, and I hope to be the voice of ICE 
employees for a long time to come.
    My colleagues in the ICE Office of Investigations, the 
Federal Air Marshals Service, the Transportation Security 
Agency, and other agencies that make up the Department of 
Homeland Security do not have the same protective rights. 
Please correct this injustice by allowing them to join the 
union and strengthening whistleblower protection laws.
    Thank you again for the opportunity to provide this 
testimony, and I will be happy to answer your questions.
    Mr. Hostettler. Thank you, Mr. Callahan.
    [The prepared statement of Mr. Callahan follows:]

                  Prepared Statement of Randy Callahan

    Mr. Chairman, Members of the Subcommittee:
    My name is Randy Callahan. I am currently an Immigration 
Enforcement Agent with the Department of Homeland Security's Bureau of 
Immigration and Customs Enforcement, Office of Detention and Removal 
Operations. I began my career in 1996, when I was hired by the 
Immigration & Naturalization Service as an Immigration Inspector. In 
1997, I became an Immigration Detention Enforcement Officer. In August 
of 2003, the Detention Enforcement Officer was reclassified into my 
current position. I am here today as the Executive Vice-President of 
Council 117 of the American Federation of Government Employees, also 
known as the National Homeland Security Council 117. The Council, 
represents approximately fifteen thousand employees of the former 
Immigration and Naturalization Service, which was split into three 
separate Bureaus: Customs and Border Protection (C.B.P), Immigration 
and Customs Enforcement (I.C.E) and Citizenship and Immigration 
Services (C.I.S) in March of 2003. On behalf of the bargaining unit 
members of these Bureaus, I thank you for inviting me to present our 
organization's views on the Bureau of Immigration and Customs 
Enforcement (I.C.E) budget crisis.

                   CURRENT FINANCIAL STATUS OF I.C.E:

    The purpose of the hearing is to address the budget crisis at I.C.E 
and believe me, there is a crisis. Though the overall budget for I.C.E 
in FY 2005 increased over FY 2004, many of the programs that had full 
funding in 2004 do not have funding in 2005. For several months, there 
has been a hiring freeze in place. All Academy training has been 
canceled for the remainder of FY 2005, so even if I.C.E began hiring 
today, it would take months to ready the Academy for classes. I am told 
that the Detention & Removal Operations (DRO) branch of I.C.E is short 
approximately 1300 full time and part time employees. I am told that 
our ``warfighter'' levels are down to approximately 70%, which I hear 
would make DRO undeployable if it were a military unit. In addition to 
the hiring freeze, I.C.E has put a hold on all permanent changes of 
station (PCS) moves.
    I mentioned the cancellation of training earlier, this includes 
activities designed to fully train approximately two thousand former 
Detention Enforcement Officers, who were reclassified and combined with 
Immigration Agent into a position called, Immigration Enforcement Agent 
(IEA). The training is just over half way completed, but I.C.E still 
has a significant number of employees, approximately nine hundred, who 
do not have the training yet. Without the training, which is called the 
enforcement transition program (ETP), I.C.E cannot use the officers for 
any type of law enforcement function, except transportation officer and 
possibly some computer work.
    There is no money for uniforms, so uniformed Immigration 
Enforcement Agents are not able to order replacement uniforms. In fact, 
the uniforms being used nationwide right now still have Immigration & 
Naturalization Service patches on them. The Union has been trying for 
several months to work with I.C.E to develop a new uniform and grooming 
standards policies, but with the budget problems, I.C.E can not afford 
to do it. I.C.E employees still use Department of Justice credentials 
and old INS badges to identify themselves as federal agents. One would 
think that two years after the creation of I.C.E they would be able to 
design and get approval for new uniforms, as well as badges and 
credentials. While I.C.E can not get out of the expense of changing the 
badges and credentials of I.C.E employees, the Union has recommended 
that DRO eliminate the uniform requirement and make all positions 
``plain clothes'' positions. This would save at least $1 million per 
year. It may be a drop in the bucket in the grand scheme of things, but 
it's a start!
    Perhaps the most disturbing fact with regard to the I.C.E budget, 
is the detention bed space issue. I received a call about two weeks ago 
from a concerned employee, who told me that Headquarters I.C.E was 
seriously discussing the release of detainees from custody, because 
I.C.E would run out of money by March 1st. I later found out that the 
money will actually run out in the middle of March. I attempted to 
secure documentation that would corroborate the rumors I had heard, but 
I.C.E management said that the release of detainees from custody would 
only be considered as a last resort.
    Unfortunately, I found out last week that DRO in San Diego, CA was 
already releasing detainees from custody. Apparently, management told 
employees that the office had to reduce their adult detention bed space 
to one hundred from over several hundred. I.C.E management said that 
they believed they would get the funding they needed to keep the 
detention spaces open, either by the reallocation of funds request 
currently on its way to the Department, or by a supplemental 
appropriations request. Just one of these funding requests will keep 
current funding levels of bed space, which is approximately 17,000 
nationwide, for a few more months. I understand that Congress funded 
approximately 22,000 bed spaces nationwide in the FY 2005 
Appropriations bill. If it is true that the current bed space used is 
at 17,000, so I am forced to ask: What happened to the funds that were 
appropriated for the remaining five thousand beds?

              POSSIBLE CAUSES OF THE I.C.E BUDGET CRISIS:

    The Department's Office of Inspector General (OIG) was ordered to 
conduct an audit of I.C.E's financial records. Though I have not seen 
the OIG report, I have heard that approximately $300 million to $500 
million was given to the bureaus of Customs and Border Protection 
(C.B.P) and Citizenship and Immigration Services (C.I.S).
    It is unclear where this money has gone, but DHS mismanagement is 
certainly a possibility. I hear from employees who complain that their 
managers may be misusing government vehicles. In San Diego, for 
example, several managers are assigned their own government vehicle as 
a commuting vehicle. These managers are not supervising fugitive 
operations teams, conducting investigations or surveillance in the 
field, so how is it they are authorized a take home government vehicle 
for commuting purposes? I hear also that these same managers are 
offering ride sharing opportunities to their friends that work in the 
same location. The Union asks that an inquiry be done to determine if 
any vehicles are being misused by I.C.E managers and take appropriate 
action to correct the problem. In our view, this kind of government 
excess and waste is unforgiveable, especially when the security 
interests of the nation are at stake.

                        IMMEDIATE FUNDING NEEDS:

    First and foremost, funding needs to be approved for the continued 
detention of immigration law violators. To do otherwise would be a 
violation of the public trust. I.C.E needs funds to start training back 
up again. IEAs that need the ETP classes should be started up ASAP, 
while at the same time bringing in new hires. The Bureau needs to
    fund the development and purchase of new uniforms for DRO 
personnel, or make it a plain-clothes position. We need new badges and 
credentials issued. I.C.E needs to fill approximately 1300 positions. 
All they need is money to bring the new hires on board and get them to 
training.

                              CONCLUSION:

    I.C.E is a bureau in financial crisis. They do not have enough 
money to hold people in custody, buy new uniforms and equipment for 
employees, or even issue badges and credentials with the correct 
Department on them. Some of the funds for I.C.E were incorrectly sent 
to the other two Bureaus created from the former Immigration & 
Naturalization Service. Some of I.C.E's resources have been misused. 
Something needs to be done to correct this problem. The Union asks that 
you fast track approval of the reallocation of funds request, any and 
all supplemental appropriations requests, as well as investigate the 
allegation of misuse of government vehicles.
    Mr. Chairman, I want to express our Organization's strong support 
for provisions in the 2005 Intelligence Reform legislation that 
increased the number of I.C.E Investigators by 4,000 over the next five 
years and the number of detention beds by 40,000 over the same period 
of time. We were disappointed to see that the Administration proposed 
an increase of only 1920 beds in FY06 and 484 I.C.E Investigators. I 
can only hope that the Appropriations Committees share your commitment 
to improving the desperate situation which currently exists in I.C.E.
    On a final, unrelated note, my ability to testify at this hearing 
stems from my right to be part of a union. It is an honor for me to be 
here and I hope to the voice of I.C.E employees for a long time to 
come. My colleagues in the I.C.E Office of Investigations, the Federal 
Air Marshal Service, the TSA, and other agencies that make up the 
Department of Homeland Security do not have the same protected right. 
Please correct this injustice, whether by allowing them to join a 
union, or by strengthening whistleblower protections. Employees should 
not have to suffer gladly management fraud, waste and abuse. Thank you 
again for the opportunity to provide this testimony.

    Mr. Hostettler. Professor Haney.

 TESTIMONY OF CRAIG HANEY, PROFESSOR, UNIVERSITY OF CALIFORNIA 
                         AT SANTA CRUZ

    Mr. Haney. Chairman Hostettler, Ranking Member Jackson Lee, 
and Members of the Subcommittee, thank you for this opportunity 
to testify. I'm here to speak today about what I learned as a 
detention expert appointed by the U.S. Commission on 
International Religious Freedom to conduct a Congressionally 
authorized study of the treatment of asylum seekers who were 
placed in expedited removal proceedings. The study uncovered 
serious problems with the way in which asylum seekers are 
detained and released. These problems are disturbing from a 
national security standpoint as well as a human rights 
standpoint.
    The study findings and recommendations that relate to 
detention are attached to my written testimony and I 
respectfully request that these be included in the record.
    Mr. Hostettler. Without objection.
    Mr. Haney. My testimony represents only my views except for 
when I cite to the specific findings in which the Commission 
and the other experts concurred.
    Among other things, the study found that the availability 
of bed space is clearly an important issue, made more important 
by dramatic regional variations in release rates that appear to 
be related to the number of incoming asylum seekers and the 
space available in which to house them.
    However, I would suggest that the answer is not simply for 
Immigration and Customs Enforcement to provide more bed space. 
We urge that ICE consistently enforce its own policies to 
ensure that aliens who should be detained are detained, but 
also that aliens who need not be detained, particularly non-
criminal asylum seekers who establish identity and pose neither 
a flight nor security risk are released.
    In addition, the part of the study that I conducted focused 
on the conditions of detention for asylum seekers, aliens who 
claim to have fled religious, political, or other forms of 
persecution and applied to the United States for protection. As 
someone whose academic expertise is not in immigration law or 
the asylum issue per se, I have spent more than three decades 
studying the psychological effects of conditions of 
confinement, what happens to people when they are confined in 
prisons and jails in the United States and other countries. But 
I was not sure what to expect when I began to examine the 
conditions under which asylum seekers were detained in the 
United States.
    The results of the study were sobering. Unfortunately, in 
fact, I found that the conditions of confinement for asylum 
seekers were remarkably similar to those I had often 
encountered in the past in examining domestic prisons and 
jails. In virtually every important respect in the overwhelming 
majority of facilities that we investigated, examined, and 
surveyed, asylum seekers were being kept under conditions that 
were virtually identical to the harsh places that our society 
has reserved for persons who have committed crimes.
    Indeed, one-third of asylum seekers are detained not merely 
in jail-like facilities but in actual jails and prisons in 
which DHS rents beds. And although a violation of DHS's own 
detention standards, asylum seekers in such facilities are 
often intermingled with criminal aliens and even with inmates 
still serving criminal sentences.
    Let me be more specific. In terms of the training of the 
staff who operate the facilities, the way the facilities 
themselves are physically constructed, the kind of elaborate 
security procedures that are imposed, multiple fences, 
barriers, locked gates and doors that separate the exterior of 
the facilities from the housing areas where detainees are kept 
and the tightly restricted movement of asylum seekers inside, 
these facilities are virtually identical to conventional 
prisons and jails. There are widespread and commonplace 
invasions of privacies and asylum seekers are denied the 
opportunity to take a shower or use toilet facilities outside 
the presence of another person. They are limited in terms of 
meaningful programming opportunities.
    Many asylum seekers in detention are not proactively 
monitored for signs of psychological distress or exacerbated 
mental illness. Their contact with the outside world is greatly 
constricted. Virtually all the facilities we surveyed limited 
the ability of asylum seekers to make phone calls, correspond 
with others, and even have contact visits.
    Precisely because of what we know about the potential 
negative psychological consequences of jail or prison 
confinement on inmates, no matter who they are or why they are 
incarcerated, the authors of the study concluded that the kind 
of detention to which these asylum seekers are being subjected 
is inappropriate, unnecessarily severe, and a matter of grave 
concern. Thus, any expansion of DHS bed space must address the 
nature of the conditions of confinement themselves.
    We strongly urge that for non-criminal asylum seekers, a 
model of non-jail-like confinement be adopted. In fact, as you 
will see in the report and in our discussion of the 
recommendations supplementing my testimony, we found one model 
actually in operation in the United States, the Broward 
Facility in Florida, which again is elaborately detailed in my 
report and in the supplement to my testimony. It is a humane 
alternative which demonstrates that those asylum seekers who 
genuinely must be detained can be kept under conditions that 
are secure, that better protect their mental health and well-
being, and also that this can be done in a way that is no more 
costly than the jail-like facilities currently in use.
    In addition to recommending that ICE ensure that its field 
officers implement existing ICE parole policies in a consistent 
manner and that ICE stop using jail-like facilities to detain 
asylum seekers who do not meet those release criteria, we also 
urge Secretary Chertoff to establish a refugee coordinator 
position with delegated authority to see such reforms through, 
since under current organizational structure of DHS only the 
DHS Secretary and Deputy Secretary have the authority to 
coordinate changes affecting the expedited removal process, as 
these procedures involve three distinct DHS bureaus, U.S. CIS, 
ICE, and CBP.
    Thank you, and I look forward to answering your questions.
    Mr. Hostettler. Thank you, Professor Haney.
    [The prepared statement of Mr. Haney follows:]

                   Prepared Statement of Craig Haney

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. At this time, we will move to questions by 
Members of the Subcommittee.
    First of all, Mr. Martin, your testimony asserts that, 
historically, formerly INS and now DHS has been unable to 
remove non-detained aliens to a great extent. Is that because 
it simply doesn't have enough agents to find the absconders?
    Mr. Martin. Certainly, resources was one of the issues over 
the years. As our report indicates, in the 15-month period that 
we examined, there were 140,000 aliens who were issued final 
orders of removal. Fifty-five percent of those aliens issued 
final orders of removal were detained. Forty-five percent were 
non-detained. The INS was effective in removing 90 percent of 
the detained aliens. So I think resources is one issue. It's 
also a priority issue of INS over the years.
    Mr. Hostettler. Your testimony also states that resource 
limitations that hindered the removal of aliens included a lack 
of detention space. Are you saying that ICE needs more 
detention space?
    Mr. Martin. I think what we're saying in our reports is the 
INS was very effective at removing aliens issued final orders 
if they were detained. They were significantly less effective 
if they were not detained.
    Mr. Hostettler. Thank you. Then are you saying that the 
only way to enforce the laws is to actually detain all aliens 
who have final removal orders?
    Mr. Martin. I don't think that's the only way. I think our 
report also points out that the INS had not been as effective 
with the resources that it had been afforded as it could have 
been, and we made a series of recommendations to improve that.
    Mr. Hostettler. Very good. Thank you.
    Mr. Callahan, as an experienced veteran of immigration 
enforcement, can you tell us how you assess the security 
situation, the national security situation, with regard to 
dangerous aliens today?
    Mr. Callahan. Dangerous aliens as in out in the public at 
large or in the criminal population? I'm not sure I understand 
the question.
    Mr. Hostettler. Dangerous aliens who are at large.
    Mr. Callahan. It is a priority for our fugitive operations 
teams, of which there are only a few nationwide, that those are 
the people that we try to find first. Unfortunately, we're not 
as successful as we could be if we had, again, the resources, 
the staffing levels and the authority to really go out and do 
more fugitive operations.
    Mr. Hostettler. How is morale for ICE Agents in the field?
    Mr. Callahan. Right now, morale is at an all-time low. We 
have, as I mentioned, 900 people that are waiting to go to 
training, there are two things with the training. Number one, 
after completing the training, the employee is going to get a 
promotion because they're going to be expected to do higher-
level work. The other aspect of it, the more operational aspect 
of it is, right now, these officers don't have the authority to 
go out and find people that are out in the public that are 
removable. With this training, they'll then have the authority 
to go out and effect those arrests.
    Mr. Hostettler. Are ICE Agents being told to concentrate 
more on Customs enforcement than Immigration enforcement?
    Mr. Callahan. Unfortunately, I can't answer that very well 
because our criminal investigators that were INS criminal 
investigators were taken out of the union, and a lot of them 
honestly are afraid to talk to me as a union rep. They're 
afraid to talk to me for fear of reprisal by managers. I have 
heard that they are focusing more on money laundering and 
traditional Customs-type investigations, but that's the best 
information I have.
    Mr. Hostettler. Thank you.
    Mr. Cutler, about our security situation, has ICE been able 
to enforce the immigration laws enough to say that potential 
alien terrorists have been deterred from embedding themselves 
safely in our society?
    Mr. Cutler. I wish I could say it was, but that's not the 
case. And there are two things that I need to make clear. You 
just asked about whether or not the mission is being pushed 
over toward the Customs side. Let's start with training.
    Right now, the new agents going through ICE Academy are not 
even getting Spanish language training. Customs traditionally 
never gave Spanish language training. The new agents aren't 
getting it. It's been estimated that 80 percent of the illegal 
alien population is Spanish speaking. There's no way that you 
can investigate people that you can't communicate with. So to 
my thinking, it's perfectly clear that the Immigration mission 
is being made secondary to the Customs mission. So that's a 
major problem right there.
    And with the lack of resources, we're very much at risk. 
You know, I spoke during my prepared testimony about the 
problem of benefit fraud. The whole idea to embedding himself 
in our society for a terrorist or a criminal is to do whatever 
it takes to keep a low profile. Obtaining immigration benefits 
is the best way of doing it. This means they no longer have to 
fear deportation, not that that's a very big fear the way 
things now stand. There are so few Immigration Agents. Let me 
just give you a fast analogy.
    I'm a New Yorker. New York likes to brag that it's the 
safest big city in America. We have eight million people. We 
are policed by a department that has nearly 40,000 police 
officers confined to the City of New York. There is probably at 
least double that number, 15, 16, 17 million illegal aliens 
living in the United States, scattered across a third of the 
North American continent, being policed by 2,000 special 
agents. What would happen to New York's crime rate if there 
were only 2,000 police officers instead of 40,000 police 
officers? That's the reason that we're in such chaos right now.
    We need the agents desperately. We need it not only to 
react to people that have committed crimes and people who are 
working illegally. Frauds have been ignored. And when I've 
spoken to people who were involved with the adjudications 
process, there's a great reliance on computers, almost no 
reliance on field agents. You can't uncover fraud without 
putting boots on the ground, people out there to knock on the 
doors and conduct the field investigations. It's labor-
intensive work, but it's critical work to prevent terrorists 
and bad guys from putting themselves on the road to that very 
much desirable U.S. passport.
    So right now, I would say that we are no safer than we were 
in the days before 9/11, and that's not acceptable, Mr. 
Chairman.
    Mr. Hostettler. Thank you, Mr. Cutler.
    The chair now recognizes the Ranking Member, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. I thank the Chairman. It causes one to 
just want to sit and be still and absorb the testimony of all 
of the witnesses because it is striking where we find ourselves 
today.
    We spent 2 days as Members of the Homeland Security 
Committee looking at some of the stark realities of securing 
the nation. It was a very effective opportunity for a Committee 
now that has been established as a permanent Committee of the 
House of Representatives, enunciating or at least reaffirming 
to America that the Congress believes this is an important 
duty.
    Mr. Chairman, this is a budget hearing and therefore, I 
think, I am going to focus my questioning along the lines of 
ratcheting up, as I said, the crisis that we face. Now, let me 
say this. I think there needs to be a balance and some order to 
this question of removal. I think, Mr. Cutler, the vignette 
that you showed us is an abomination, criminals, predators 
running amok and not being detained. The interesting thing is, 
a Palestinian family of seven who had given out flags after 9/
11, whose children were in medical school and other schools, 
was easily deported, people who begged to be able to stay in a 
country they love. But we have criminal predators and others 
who we don't know who might do harm to this country running 
amok.
    Frankly, we have an expedited or a supplemental 
appropriations coming through this Congress that I will 
purposely go and look Mr. Callahan, for funding for your 
agency. The question is, in the wisdom of the Administration, 
have they failed to acknowledge that we are in the midst of an 
abysmal crisis, in a dark hole, if you will, struggling to get 
out? Eight hundred requested, 143 still--143 as the offering. 
It's a pittance. We shouldn't even dignify that number. Eight 
hundred ICE recommended, which I'm sure was at the low end, and 
only 143 in the Administration's budget. And an emergency 
supplemental of $82 billion.
    Now, let me say this. You know, we won't quarrel over 
supporting troops, and that's what's going to be utilized 
against those of us who are going to be challenging the 
emergency supplemental as failing America. Oh, we're supporting 
troops. In fact, we would like them to come home and have a 
secure Iraq. This is not a hearing on that at this point, but 
it is a hearing dealing with emergencies. You have said and 
indicated we have an emergency.
    So my line of questioning will focus on that because we 
have a budget that is going to put us in a trillion dollars' 
worth of debt, with tax cuts to those who don't need it, the 1 
percent of this country that happen to be beyond the need of 
tax cuts, and we have Mr. Callahan and his team without badges. 
Frankly, you know that if someone was doing their duty, they 
could tell you to go away. You are not credentialed. You are 
not documented. In fact, as you walked into this building, if 
someone asked you for your documentation, you are, in essence, 
misrepresenting to law enforcement officers in the United 
States Capitol that you are someone who you are not. You have 
no documentation----
    Mr. Callahan. That is correct.
    Ms. Jackson Lee.--in a hearing on immigration that wants 
people to be documented.
    So, Mr. Cutler, let me just--we had a hearing yesterday. 
Could you just give me just a sentence that ties into this, of 
fixing this split that we have? Did you come to a conclusion at 
the Homeland Security hearing that this is something we need to 
expedite and fix, and this question of the divide between 
Border and ICE, is that something that we need to fix, as well, 
as we look at the budget process here?
    Mr. Cutler. We need to fix it. We need to fix it quickly. 
My recommendation, to sum it up as briefly as I know how, we've 
erected an artificial border between two agencies that are 
supposed to be doing the same job, that is CBP and ICE. I think 
that makes no sense. We need to fortify our nation's exterior 
border but not create internal borders among the bureaucracies 
that are charged with this vital mission.
    So what I've recommended is that we should link the two 
agencies together, eliminate this gap that exists between CBP 
and ICE, put it under one roof, but at the same time, I would 
like to see a separate chain of command, separate training, and 
separate budgeting for the immigration mission simply so that 
we don't wind up with what I referred to yesterday as the 
Customization of immigration law enforcement. We need to make 
certain that the resources that are dedicated to Immigration 
enforcement are, indeed, dedicated to Immigration enforcement, 
not to say that Customs enforcement isn't critical, but what 
I'm seeing here is the total abdication, or close to a total 
abdication, of the enforcement of the immigration statutes that 
would protect us from criminal aliens and terrorists. So that 
was the Cliff Note, the short version, of my recommendation at 
yesterday's hearing.
    Ms. Jackson Lee. Mr. Callahan--thank you very much. Mr. 
Callahan, obviously, the lack of firewalls on 9/11 was raised 
as a problem when the intelligence agencies were not speaking 
to each other. Obviously, that is what is happening now with 
ICE and Border Patrol.
    But Mr. Callahan, just quickly, you mentioned some 
terrible, beyond your documentation and lack of a badge, but 
you mentioned the issue of the hiring freeze and the fact that 
you are unable even to have funding for detention. Would you 
view this as an emergency deserving of being looked at as to be 
included in what is now called an emergency supplemental? Would 
you think we're at a point where your funding needs to be 
included in the emergency supplemental?
    Mr. Callahan. Absolutely. I mean, within 5 days, as I 
testified, we either have to go in to violate the Anti-Deficit 
Act and keep people in custody but be in violation of that Act, 
or we have to release them. So I'd say it is an emergency.
    Ms. Jackson Lee. Mr. Chairman, I would just simply ask that 
we, as a Committee, make a request that the full funding for 
ICE be included into the emergency supplemental and, as well, 
on Mr. Haney's testimony, realize that the brutalizing of 
asylum seekers is not compatible with the values of America, 
and if necessary, ask for emergency funding, as Mr. Haney has 
indicated, the problems we face with asylum seekers, and I make 
that request. I thank the Chairman. Thank you.
    Mr. Hostettler. I thank the gentlelady.
    The chair now recognizes the gentleman from Texas, Mr. 
Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you people 
for your testimony at this hearing. You are all so equivocal in 
your positions. Sarcasm. [Laughter.]
    We obviously have a major problem. As a former district 
judge and Chief Justice, I ran into this problem constantly. We 
had one INS Agent for the entire East Texas area. But I do have 
some questions to clarify some of the testimony.
    Mr. Martin, you had indicated 35 percent of the non-
detained aliens who were criminals were deported, I believe, of 
the sample, and I think maybe those figures you were giving us 
were of the sample that was taken. Can you tell us what sample 
was taken?
    Mr. Martin. Right. The aliens in the database when I used 
the 55 percent detained versus the 45 percent was over a 15-
month period. It was approximately 141,000 aliens.
    Mr. Gohmert. Oh, your sample was 141,000?
    Mr. Martin. A hundred-and-forty-one-thousand----
    Mr. Gohmert. Okay. That's a good sample.
    Mr. Martin. It was a smaller sample, though, when we looked 
at these high-risk groups, the state-sponsored terrorism, the 
asylum seekers who were denied and not detained. That was a 
smaller group.
    Mr. Gohmert. Okay. What would you give as the number one 
reason why people are not detained in the various categories 
that you mentioned?
    Mr. Martin. I think it's a lack of resources coupled with a 
lack of priority.
    Mr. Gohmert. Lack of resources, meaning what?
    Mr. Martin. Meaning officers, meaning detention space.
    Mr. Gohmert. So you're saying we need more detention space 
to get them out of the country?
    Mr. Martin. Well, again, our reviews have shown that the 
INS is effective, and if they detain the alien, they are 
effective in removing the alien.
    Mr. Gohmert. Well, I can tell you from my own experience 
that one anecdotal situation, for example, a guy is repeatedly 
arrested for DWI. He doesn't get deported until it's a felony, 
comes to my felony court. I send him to prison. He's 
immediately deported once he gets to prison. He comes back to 
my court because he's in an accident and hits somebody while 
drunk and I see that he's going to keep coming back. I send him 
to 10 months of treatment where I can at least lock him down 
where he won't hurt people, and after a few months, they get 
him and deport him and who knows where he is now hurting whom.
    But those kind of things lead me to ask, when aliens are 
deported, where are they taken? What is done with them?
    Mr. Martin. I will defer to the ICE Agent.
    Mr. Gohmert. Is that Mr. Callahan? Is that your bailiwick?
    Mr. Callahan. I can actually answer that. It depends on 
where they're from. If they're from Mexico, we just take them 
down to the border at Mexico. There is a program----
    Mr. Gohmert. You take them down there and do what?
    Mr. Callahan. We watch them go across the border.
    Mr. Gohmert. Watch them go across the border. Okay. Do you 
know if people hang around long enough to watch them come back, 
or do they just turn around and leave?
    Mr. Callahan. Where I'm from in San Diego, there's a large 
Border Patrol contingent there that is at the border and if 
they are coming back--a lot of times, what'll happen is they 
speak good enough English to where they can go around to come 
in through the port of entry, and if they can convince that 
inspector, since there's no requirement--right now, there's no 
requirement to have a U.S. passport or U.S. documentation to 
come in from Mexico. So if he speaks good enough English and 
can convince that inspector that he's a U.S. citizen, they'll 
let him through.
    Mr. Gohmert. Another question, Mr. Callahan. You said you 
could do more if you had more staffing and authority to go into 
the field. We heard discussion and I think a couple of you have 
indicated there may be more priority with Customs than with 
Immigration. Who makes that decision as to what is the 
priority?
    Mr. Callahan. Well, right now Detention and Removal 
Operations is charged with locating fugitive aliens. So we need 
more staff there. There are about 2,000 to 3,000 Immigration 
Enforcement Agents and Detention or Deportation Officers, but 
not all of them are assigned that work. I'd say probably, you 
know, 200, 300 at best.
    Mr. Gohmert. Yes, but my question was who makes the 
priority? Who sets the priority?
    Mr. Callahan. It would be the headquarters ICE or 
headquarters Detention Removal.
    Mr. Gohmert. Okay. Mr. Cutler, I appreciated everything you 
had to say. I couldn't agree more with everything you had to 
say except for one thing. You said, we're no safer now than we 
were on 9/11. It seems like in so many areas we have become 
safer, everywhere except in the area of immigration, that 
that's----
    Mr. Cutler. Well, I do have to clarify that----
    Mr. Gohmert. Yes?
    Mr. Cutler.--and that is the area of concern for me, 
though. And if you read the----
    Mr. Gohmert. Well, for a lot of us.
    Mr. Cutler. Well, yes. And if you read this 9/11 staff 
report, they talk about terrorist travel. It seems as though 
our Government, and I don't mean you, I mean the powers that 
be----
    Mr. Gohmert. We're all part of it.
    Mr. Cutler. Well, but you understand what I'm trying to 
say, sir.
    Mr. Gohmert. Sure.
    Mr. Cutler. As a New Yorker, as an American, as a former 
agent, I don't think that the Government has learned the 
lessons that we should have learned. The fact that we haven't 
appreciably increased the number of agents to do interior 
enforcement, the fact that we're talking about 843--goodness 
gracious, 2,000 special agents for the entire country. Look at 
the manpower that we flooded into Iraq, and this isn't going to 
be about Iraq, but the point is, we should match the effort to 
secure Iraq with an effort to secure our own country up close 
and in person, and it really pales by comparison.
    Mr. Gohmert. Yes.
    Mr. Cutler. It's troubling.
    Mr. Gohmert. Yes. I'm not advocating pulling from one to go 
to the other. We just need to----
    Mr. Cutler. No, no, no. You understand what I'm saying, 
sir?
    Mr. Gohmert. Yes. We need to make this a priority.
    Mr. Cutler. And to say we're fighting it there so we don't 
have to fight it here is foolish. I mean----
    Mr. Gohmert. I think we're on the same page. Thank you very 
much for your efforts.
    Mr. Cutler. Okay, sir. Yes.
    Mr. Hostettler. Thank you, Mr. Gohmert.
    The chair now recognizes the gentlelady from California, 
Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you. Mr. Callahan, I found your 
testimony particularly compelling, I must say, because you're 
one of those folks that, day in and day out, are on the front 
lines. And what I found particularly interesting about your 
testimony is that on numerous occasions, we have had Department 
heads from ICE and Border Patrol tell this Committee that they 
have sufficient resources to do the job, and yet I'm hearing 
the exact opposite from your mouth. I just want to reassure you 
that you're not alone, because I recently heard from several 
ICE Agents that, in fact, they oftentimes have to pay for their 
own gasoline to do their patrols and conduct their raids.
    Now, a question I have for you is why do you think there's 
this discrepancy between what the Administration officials are 
telling us and what the folks who are on the front line doing 
the job day in, day out, are experiencing firsthand?
    Mr. Callahan. Well, I think it comes down to the fact that 
the senior leadership in the Department serve, honestly, at the 
will of the President, and so they need to reflect what--they 
need to show support for his budget, and that's where I think 
the discrepancy comes from. It's not that they don't want to 
come out and say, we need more; I think you'd have to ask them 
that question themselves, but I think they honestly feel that 
they need to support the President's budget.
    Ms. Sanchez. Let me ask you something. Do you think that 
we're safer since September 11 in how we conduct our internal 
security and our homeland security?
    Mr. Callahan. I think we're more focused than we were 
before September 11, but we've got a long way to go.
    Ms. Sanchez. As another note, as an IBEW member myself, I 
know how helpful unions can be in giving workers a voice and a 
say in what is going on and getting some of these concerns 
addressed by higher-ups in the organization. What are some 
things that you can suggest perhaps to Congress that we can do 
to help return--or retain, pardon me, ICE Agents and to overall 
try to improve the retention rate of employees for the 
Department of Homeland Security?
    Mr. Callahan. Well, that's a very good question and one of 
the ways is awarding--recognizing employees that perform. It's 
funny that you bring that up, because I'm told that we don't 
have funds right now to award employees for performance, and as 
you know, in the future, the very near future, we will be 
moving to a pay-for-performance system, and if our budget is so 
tight that we can't afford to award employees, then effectively 
you're saying to them, you didn't perform well enough this 
year.
    Ms. Sanchez. Excellent. Another question that I have for 
you is with respect to the training, or the lack of training, I 
guess is a better way of addressing it. How important do you 
think training is for new officers who are just coming onto the 
job?
    Mr. Callahan. Well, training is critical, not just for new 
officers. I mean, obviously, you have to get them through a 
basic level of training to begin with, but it's also important 
for those that go into the field, especially these Immigration 
Enforcement Agents that were Detention Enforcement Officers 
before that had never gone through the type of training to 
identify someone who's here illegally. It's critical for that. 
If you're going to give them the authority to determine their 
alienage, or determine alienage and put people into removal 
proceedings, they need to know the law, and right now, they 
don't have it. So that's absolutely critical.
    Ms. Sanchez. Let me ask you something. Do you think it 
would be--this is my last question--a good idea to have local 
law enforcement officers who have no training to do the job 
that agents like you are supposed to be doing? Does that sound 
like a good idea to you?
    Mr. Callahan. Well, without any training, certainly, it's 
not a good idea. If the idea is to hold someone until an INS-
trained officer can come in and determine alienage and begin 
the removal proceedings, that would be a good idea. That would 
actually be helpful, because that--and that does happen 
somewhat in the field.
    Ms. Sanchez. But doing something proactively, going out on 
a day-to-day basis trying to do the similar type of job that 
you are doing, do you think that's a good idea, without any 
training?
    Mr. Callahan. Without any training, I would disagree with 
that.
    Ms. Sanchez. Okay. Thank you. I have no further questions. 
I yield back.
    Mr. Hostettler. I thank the gentlelady.
    The chair now recognizes the gentleman from Texas, Mr. 
Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, Mr. Martin, thank you for your past good work 
as Inspector General at the INS. We both go back to those times 
that you always did a great job.
    I had a number of questions today, but let me start off 
with trying to make the point that I think the problem is 
greater than any of us think that it is. You mentioned in your 
testimony that you thought there were eight million illegal 
aliens in the United States. I think the Census actually 
revised that to ten to 11 million. But the census figure, as 
you and I know, is based upon the number of illegal aliens who 
are permanent residents, who are residents in the United 
States. It does not count the number of illegal immigrants who 
might be in this country on a temporary basis, whether it be 1 
day or 11 months and 29 days.
    So to me, it's reasonable to say that the problem may be 
twice as great as many of us, or as most people think. Instead 
of having ten million illegal aliens, there may be 20 million 
on a given day in the United States. Would you agree, 
generally, with that statement?
    Mr. Martin. I can't disagree with that statement. I haven't 
done enough research on that. We haven't looked at that.
    Mr. Smith. Suffice it to say the problem is greater than 
just the people who are in the country illegally on a permanent 
basis.
    Mr. Martin. We would agree with that.
    Mr. Smith. The question that I wanted to ask Mr. Martin, 
Mr. Cutler, and Mr. Callahan, and Mr. Haney, I don't mean to 
omit you, but your testimony is primarily on asylum and that's 
not the thrust of my question, but do you all support Congress 
in our efforts to try to get 800 new ICE investigators a year 
and the 8,000 new detention beds a year? Mr. Callahan, you said 
we had a budget crisis in your testimony, and Mr. Cutler 
pointed out accurately that 40 percent of the people in the 
country illegally actually came over legally on visas and then 
overstayed, and Mr. Martin pointed to the need, as well. Would 
you support our efforts to get those numbers? Mr. Martin?
    Mr. Martin. I would support--I think we support--our 
research has shown that, again, the INS is effective if aliens 
issued final orders for removal are detained. And so whatever 
resources are provided to the ICE----
    Mr. Smith. Okay. Mr. Cutler?
    Mr. Cutler. Absolutely.
    Mr. Smith. And Mr. Callahan?
    Mr. Callahan. Absolutely, but in addition to detention bed 
space, we need to realize that you could have 10,000 more bed 
spaces, but if you don't have personnel to manage that----
    Mr. Smith. Actually, you anticipated my next question, 
which is why did the Administration cancel the training when 
you've got people waiting to and want to go through that 
training and when you have such a great demonstrated need?
    Mr. Callahan. You'd have to ask Mr. Garcia that question, 
but I believe they just don't have any money.
    Mr. Smith. They ought to request the money if they don't 
have it.
    Mr. Cutler. But the training also needs to be in-service, 
document training, for example. Documents are the lynchpin that 
holds immigration together. And I don't know that there's any 
ongoing program to give document training to any of our line 
personnel. Now, this isn't an acceptable situation, so----
    Mr. Smith. Let me try to bring another question to you. We 
have a series of votes that have been called.
    Mr. Martin, we have a problem with non-detained aliens who 
receive their final deportation orders. What is the solution to 
that? What would you recommend, and then I will ask Mr. Cutler 
and Mr. Callahan the same question?
    Mr. Martin. I think resources are a big part of it. I think 
it's also a focus on interior enforcement, which we do go back 
a lot of years looking at the INS. It has not been a historic--
--
    Mr. Smith. Speaking of interior enforcement, do you all 
realize that the Administration in 2004 did not fine a single 
employer for hiring illegal immigrants?
    Mr. Callahan. Yes, I'm aware of it and I think it's 
outrageous.
    Mr. Smith. I interrupted you, Mr. Martin, but we need to--
--
    Mr. Martin. No, I'm all right.
    Mr. Smith. Mr. Cutler, what is your solution to the non-
detained aliens who have received final deportation notice?
    Mr. Cutler. All I can tell you is I know right now, there's 
well in excess of 400,000 such aliens that are wandering around 
the United States. I think we need many more beds. We need to 
do a better job. And I think we need to be more creative in the 
way we try to enforce the laws, also.
    Mr. Smith. Mr. Callahan?
    Mr. Callahan. The Fugitive Operations Team in San Diego 
started to, instead of mailing out the notice that their final 
hearing has been adjudicated and they're removed, we've gone 
out to their residence to hand deliver it to them and pick them 
up at the same time. So I think something along those lines 
would be effective.
    Mr. Smith. Okay. Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The chair now recognizes the gentlelady from California, 
Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman and Members. 
I am new to this Committee, but I have witnessed this 
Administration organize the so-called war on terror and they 
said that homeland security was perhaps the top priority. To 
come into this Committee today and hear that we do not have 
enough agents, that we don't have enough beds to detain illegal 
aliens who have been involved in criminal activity, to find out 
that we're releasing aliens out into the general public and we 
don't track them, we don't know where they are, it's all very 
strange to me.
    Mr. Martin, does the President of the United States know 
that his homeland security is at great risk because of the 
problems that were identified here today and other problems we 
have?
    I want to add to this the fact that I just learned that 
suspected terrorists can buy handguns in the United States, and 
also, we are--and I am from Los Angeles here. We're real 
worried about a lack of security at our ports, and still we 
don't have the answer to how we secure containers, let alone 
nuclear facilities. So, I mean, every day, I learn something 
new.
    Mr. Martin, does the President of the United States know 
that homeland security is not working in the United States?
    Mr. Martin. Congresswoman, since March of 2003, the 
immigration enforcement effort has been moved out of the 
Department of Justice to the Department of Homeland Security. 
We are the Inspector General's office for the Department of 
Justice, so I think that's probably a more appropriate question 
for the IG's Office of Homeland Security.
    Ms. Waters. But you haven't heard anything? Aren't you 
concerned about security, even though it's not in your 
Department, as you have described?
    Mr. Martin. As the father of three daughters, I'm concerned 
about security.
    Ms. Waters. So what have you heard? Tell us what you know 
about this. You must know more than you say.
    Mr. Martin. Again, what we're reporting on today at this 
hearing are studies that we have conducted in 1996 and 2003 
that focus on the INS's effectiveness at removing detained and 
non-detained aliens.
    Ms. Waters. All right. Well, let me just ask Mr. Cutler, 
you mentioned something about sleeper cells.
    Mr. Cutler. Yes.
    Ms. Waters. Is that true?
    Mr. Cutler. Well, if you're concerned about sleepers, then 
what you need to do is remove the foliage that they hide 
behind. I mean, that's the whole idea of embedding. If somebody 
is in the United States looking to hide in plain sight, which 
is really what a sleeper is, it's somebody that you might pass 
on the street 1 day and not realize that this person is waiting 
for that phone call or that letter to arrive in the mail 
telling him or her to go out and commit an attack against us. 
That's what a sleeper is.
    What we saw when you look at the report from the 9/11 
Commission was that the terrorists who attacked us became very 
adept at using our systems against us to go out there, hide in 
plain sight, and then position themselves so that they could 
attack us. And we're not using the resources and we aren't 
getting the resources that we need to defend ourselves against 
this sort of thing and it makes no sense to me. I don't 
understand it.
    I don't understand why have a 9/11 Commission if you're not 
going to take the advice that they give you at great expense 
and at great effort.
    Ms. Waters. I agree with you and I guess, you know, being 
new to this Committee, I don't understand why the Members on 
the opposite side of the aisle who represent the majority in 
the Congress of the United States can't convince their 
President that there's something wrong with not having enough 
agents to investigate and protect the interior and not having 
enough detention beds, not having a real homeland security 
program as it does with immigration. I don't know why we are 
here. This is the kind of problem that should be discussed 
right inside the Administration and the Members on the opposite 
side of the aisle, we would like us to feel safer since 9/11, 
should be in the forefront of this in ways that we shouldn't be 
dallying around. It should be reflected in the budget. I just 
don't understand.
    Mr. Cutler. I want to say one thing. I don't think it's one 
side of the aisle or the other. If you look at what happened in 
1993 after the first Trade Center attack, nothing changed in 
terms of immigration enforcement. We don't, as a country, seem 
to learn the lessons, and I blame both sides of the aisle for 
this. We've got to get away from the idea that we can ignore 
the problem and it'll go away. It only gets worse.
    Ms. Waters. Yes, but we've had 9/11 and it's been referred 
to many times here today as you talk about the Commission----
    Mr. Cutler. Absolutely.
    Ms. Waters. The definition of this Administration is the 
war on terror.
    Mr. Cutler. Absolutely.
    Ms. Waters. This is what the President is all about. This 
is his big push. This is his top priority. So we are to sit 
here and talk about he's nickel and diming us on the agents 
that are supposed to be responsible for the investigation and 
enforcement in the interior? What are we talking about? So what 
do you suggest we do, Mr. Callahan?
    Mr. Callahan. I think we definitely need to go beyond what 
was requested in the President's budget. We need to go with 
what was recommended on the Congressional side.
    Mr. Hostettler. I thank the gentlelady.
    Ms. Waters. I'm not finished yet----
    Mr. Hostettler. Well, the red light is--we're facing----
    Ms. Waters. Unanimous consent for 30 more seconds so I can 
put a little heat on you. [Laughter.]
    Mr. Hostettler. For 30 more seconds, without objection.
    Ms. Waters. Well, let me just address my comments in these 
30 seconds to say time is very precious around here and it 
seems absolutely ridiculous that we should be spending time 
trying to convince the President of the United States to do 
what he said he was doing, and that is protect the homeland. 
And so I would hope we would not take up more time with 
witnesses, we would not keep identifying what's wrong in 
immigration, that somehow, my friends on the opposite side of 
the aisle would just tell the President to do the right thing 
and to advance the budget, increase the numbers for the agents, 
put the money where it's supposed to be, and let's protect the 
homeland.
    Mr. Hostettler. I thank the gentlelady.
    Ms. Waters. I yield back the balance of my time.
    Mr. Hostettler. I thank the gentlelady and welcome you to 
the Subcommittee.
    For the time being, the Subcommittee will recess. We have 
votes on the floor, two votes. We will return shortly 
thereafter. I appreciate the indulgence of the witnesses. We 
have at least a couple more Members that would like to ask you 
questions. We are recessed.
    [Recess.]
    Mr. Hostettler. The Subcommittee is called back to order. 
The chair thanks the witnesses for your patience and recognizes 
now the gentleman from California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman, and I thank 
the panelists for being here. I appreciate this. This is a 
subject I've been dealing with for the last 26 years, both as a 
Member of Congress and then as Attorney General of California 
and now as a Member of Congress again.
    Some of the questions that have been raised about lack of 
support for interior enforcement, and maybe you don't want to 
venture this opinion, but I would just ask you, have you ever 
noticed Congress attempting to influence this Administration 
and prior Administrations about interior enforcement? And by 
that, I recall not too long ago Congress trying to stop some 
interior enforcement and giving some rather strong signals to 
the Administration in charge that we ought not to do this 
because somehow, it would cause discrimination against folks. 
Are any of you aware of Congress being part of the problem 
rather than just the executive branch? Yes, sir, Mr. Cutler?
    Mr. Cutler. Well, I recall a Member of Congress making a 
speech in Mexico equating a raid on, I believe it was Wal-Mart, 
with an act of terrorism being committed against aliens. I have 
to tell you that as a former INS Agent, I had steam blowing out 
of my ears when I heard it.
    The bottom line is we've politicized immigration to an 
extent that's incredible. You know, they call Social Security 
the third rail. It doesn't have nearly as much juice as a third 
rail as the immigration issue does. And I think what we really 
need to understand is that you get one shot at a first 
impression. It's the immigration laws that serve as that first 
impression for people from all over the world and we can't 
afford to politicize it.
    And now, of course, with the war on terror ongoing, we 
certainly need to make certain that the immigration laws are 
properly, fairly, and effectively enforced and interior 
enforcement is the key. You can't control the border at the 
border if you don't take care of the interior. The Maginot Line 
didn't work in the Second World War and it certainly doesn't 
work here.
    Mr. Lungren. See, my problem is sometimes it looks like 
we're too busy finger pointing rather than realizing that we 
have a national problem----
    Mr. Cutler. Right.
    Mr. Lungren.--that stems from a lack of national will and a 
lack of national strategy, which stems from both the Congress 
and the executive branch, Democrat and Republican, not taking 
this subject seriously.
    I was one of those who volunteered for service on this 
Subcommittee 26 years ago and it was not difficult to get on 
the Subcommittee because nobody wanted to be on the 
Subcommittee.
    Mr. Cutler. I suspect your colleagues thought it was 
political suicide.
    Mr. Lungren. Well, I can show you some results in some 
campaigns that I've been in that might suggest that to be true.
    The question I have is, does it make sense to have a 
division between the CBP and ICE? Am I wrong in assuming that 
this is similar to a police department dividing its detectives 
from its foot patrol?
    Mr. Cutler. I think that's a great analogy and it makes no 
sense, because what we've done is to erect an artificial 
barrier between the interior and the border, and it's a 
continuum and there's so much overlap and we need to understand 
that they're all trying to work the same goal. And, in fact, 
I've spoken to people at ICE and at CBP, and by the way, under 
the new management rules, these people were petrified that I 
might identify them in any way, shape, or form for fear of 
reprisal, and that's not the way the Congress can do effective 
oversight, but that's an effective issue.
    But the point of the matter is that we need to have a 
coordinated effort, because right now, we have CBP Agents 
calling up the FBI when there are violations of law that more 
appropriately should be handled by ICE, and that's 
counterproductive. It's terrible for morale. It's terrible for 
a sense of continuity. You need to have seamless enforcement.
    Years ago, I called for a tripod. I want everybody in this 
enforcement tripod. You've got the inspectors enforcing the 
laws at ports of entry, the Border Patrol between ports of 
entry, backed up by the special agents and Deportation Officers 
operating from within the interior of the United States, making 
up the third leg. Well, look how truncated that third leg is, 
2,000 interior agents versus 10,000 Border Agents. We need to 
have legs of equal length, and so we need to have equal 
emphasis on the interior and the border and they need to be 
coordinated and understand that they all work in the same 
program to accomplish a common goal. The problem is, no one's 
ever established what the goal is.
    Mr. Lungren. Mr. Martin, I'd like to ask you to address 
this question. In my prior service in the Congress, I remember 
many times there were questions raised by Members of Congress 
concerning the separation between the Customs Service and the 
INS, Border Patrol, that it would make more sense from an 
efficiency standpoint if we brought them together. Do you fear, 
as Mr. Cutler has suggested, that the result of the 
reorganization has been an over-emphasis on Customs duties to 
the exclusion of or to the detriment of Immigration or Border 
Patrol, as we used to call it?
    Mr. Martin. Congressman, our expertise looking at the 
immigration matter really ended almost 2 years ago when INS 
moved to the Department of Homeland Security. I understand the 
DHS IG's office is currently studying the issue about whether 
or not the two entities should be brought together.
    Mr. Lungren. Mr. Callahan?
    Mr. Callahan. I think that irregardless of the 
organizational structure, you need to have good leaders in 
place to concentrate on the mission and you need to have 
adequate staff and resources to get the job done.
    Mr. Lungren. There's been a suggestion here that we don't 
have enough money, don't have enough people. You know 
something? That's absolutely true, and one of the reasons that 
we never talk about here in Congress is when you try to do 
everything, you don't do anything well.
    I was in a hearing yesterday on the budget, and as we were 
marking up budget people are saying, ``We are responsible in 
the Congress for putting boots on the ground in every single 
law enforcement agency in the country. That, somehow, it's the 
Federal obligation to pay for local law enforcement officers. 
It's a Federal obligation to pay for local drug agents. It's a 
Federal obligation to do all of these things.'' But frankly, 
under the Constitution, it is the Federal Government that has 
the sole responsibility for Border Patrol. We can ask local law 
enforcement to assist us but because we're spreading ourselves 
so thin to do everything for everybody and never say no, we 
can't do the job that we're supposed to be doing here.
    I'm absolutely convinced that if the Administration didn't 
have these other concerns and other responsibilities in many 
ways imposed upon them by this and prior Congresses, they would 
give you the money and the manpower you need because we'd have 
it. But the problem is, we are three-plus years past 9/11 and 
we have not reorganized ourselves in terms of priorities to 
recognize the Federal Government has the sole responsibility 
for Border Patrol. The Federal Government has the primary 
responsibility for dealing with terror inside and outside this 
country.
    And if that be true, then we ought to organize ourselves 
that way and maybe in some ways we tell, as tough as it is 
politically, some local governments and State governments, you 
know, police responsibility is primarily yours, and if you 
don't do that, there's no reason for you to exist, and we have 
to go about the business of doing what we're supposed to do.
    Instead of having an Administration bragging about the fact 
they put 100,000 cops across this nation, and that was a little 
bait-and-switch because the original program was we pay 100 
percent the first year, 75 percent the second year, 50 percent 
the third, 25 percent the fourth year, and nothing the fifth 
year, and you all know what happened. Around the fourth year, 
local jurisdictions came here and said, ``You're responsible 
for paying for these folks.''
    What if we instead had gotten 100,000 Federal officers 
involved with Border Patrol, interior inspection, and the other 
things that are our responsibility? I doubt any of you'd be 
here. We'd probably have enough money to treat people properly 
under Mr. Haney's consideration. But instead, we're sitting 
here chasing our tails. Sorry, that's not a question. 
[Laughter.]
    Thank you, Mr. Chairman.
    Mr. Hostettler. No, but it does deserve a hearty amen.
    I thank the witnesses for your testimony today and your 
service to our country. All Members will have seven legislative 
days to enter remarks into the record, extension of remarks 
into the record.
    The business before this Subcommittee being completed, we 
are adjourned.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Questions For the Record Submitted to DHS Immigration and Customs 
                Enforcement by Chairman John Hostettler

        How many spaces did ICE commit to using contract/ local 
        facilities instead of its own?

        DACS indicates 19,508 detainees on March 1. Of those, 16,013 
        were NOT in SPCs

        Have contract facilities ever released detained aliens by 
        mistake?

        In FY 2005, we have had six detainees escape from custody. DRO 
        will have to look into the individual incident reports to see 
        if any of these escapees used false IDs and was ``released.''

        How many previously detained aliens were released last year? 
        (similar - how many aliens with final orders were released last 
        year?)

        The attached Excel sheet has the releases by type and month for 
        all locations, locations excluding SPCs, and SPCs only. 
        ``Unknown'' releases are those in which the last detention 
        record for an alien indicates a transfer to another facility 
        but there is no record from that facility.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

         Prepared Statement of Congresswoman Sheila Jackson Lee
    The Bureau of Immigration and Customs Enforcement (ICE) merged the 
investigative functions of the former Immigration and Naturalization 
Service (INS) and the Customs Service, the INS detention and removal 
functions, most of the INS intelligence operations, the Federal 
Protective Service, and the Federal Air Marshals Service. ICE's areas 
of responsibility include the enforcement of laws dealing with the 
presence and activities of terrorists, human trafficking, commercial 
alien smuggling operations, document fraud, and drug trafficking.
    For instance, ICE investigators conducted an eight-month 
investigation last year of two men who were selling false identity 
documents to members of terrorist organizations. The ICE investigators 
developed such a strong case against these individuals that they 
pleaded guilty on February 28, 2005, to a charge of involvement in a 
conspiracy to sell false documents to purported members of Abu Sayyaf, 
a Philippines-based group that has been designated as a foreign 
terrorist organization.
    The Intelligence Reform and Terrorism Prevention Act of 2004 
authorized 800 new ICE investigators for FY2006 through FY2010. The 
President's budget only requests funding for 143 new Ice investigators 
for FY 2006, which is only 17% of the authorized number. We need all of 
the 800 additional ICE investigators authorized by the Intelligence 
Reform and Terrorism Prevention Act.
    The National Intelligence Reform and Terrorism Prevention Act also 
authorized 8,000 new detention beds each year from FY2006 through 
FY2010. The President, however, has requested funding for 1,920 beds 
for FY2006, which is only 24% of the authorized number. We need all of 
the 8,000 beds that were authorized. They are necessary to provide 
appropriate detention facilities for asylum seekers and to detain 
people who might be dangerous.
    In a recently issued Report on Asylum Seekers in Expedited Removal 
Proceedings, the U.S. Commission on International Religious Freedom 
provides information about 19 detention facilities that house asylum 
seekers. The facilities are located in 12 different states and include 
6 county jails, 5 Homeland Security facilities, 7 private contract 
facilities, and one special county-run detention facility for alien 
families. These institutions housed more than 70 percent of all aliens 
subject to Expedited Removal in FY 2003. Overall, they housed 
approximately 5585 alien men and 1015 alien women.
    More than half of the facilities reported that they housed asylum 
seekers with criminals. Among the 8 facilities that housed criminal 
inmates, 7 permitted some contact between them and the detained aliens. 
In 4 of the facilities, this included shared sleeping quarters.
    In only one of these facilities were the line officers or guards 
explicitly told which inmates were asylum seekers. Also, very few of 
the facilities provide any specific training to sensitize guards to the 
special needs or concerns of asylum seekers. Even fewer facilities 
provided training to recognize or address the special problems 
experienced by victims of torture and other forms of trauma.
    All of the facilities but 5 reported that they used strip or other 
kinds of invasive searches on detainees as a standard procedure during 
the time they were processed into the facility. All but 3 reported 
using strip or invasive searches for security-related reasons during 
the detainees' subsequent confinement.
    Virtually all of the facilities reported using physical restraints. 
For example, the Tri-County Jail in Ullin, Illinois, used handcuffs, 
belly chains, and leg shackles when detainees left the facility.
    Only a few of the facilities provided the detainees with access to 
private, individual toilets. In only slightly more of the facilities 
were detainees able to shower privately. The overwhelming majority of 
the facilities required detainees to wear uniforms.
    It is unconscionable that we are treating asylum seekers this way. 
They have not been sentenced to incarceration as convicted criminals. 
Why are they being treated as if they were convicted criminals? This is 
especially distressing in view of the fact that some of them have come 
to the United States seeking refuge from torture and other forms of 
extreme abuse.
    The failure to provide adequate detention facilities does not just 
result in inappropriate incarceration of asylum seekers. It also 
results in the release of aliens who might be a threat to our national 
security. Although a large number of aliens cross the border between 
Mexico and the United States illegally, the U.S. Border Patrol (USBP) 
catches many of them and returns them to Mexico. The Mexican 
government, however, usually does not accept aliens from other 
countries. These aliens are referred to as ``Other than Mexican'' or 
``OTMs.'' Due to a shortage of detention beds, USBP cannot detain all 
of them. According to information from the Congressional Research 
Service, USBP released 35,000 OTMs last year on their own recognizance.
    Most of the OTMs are ordinary people who have come to the United 
States to seek a better life for themselves and their families. There 
is concern, however, that terrorists will use this weakness in our 
border security as an easy way to enter the country. Also, we have a 
growing number of Mara Salvatrucha (MS 13) gangs in our major cities, 
and members of these bloody, violent Central American gangs are 
entering the United States as OTMs.
    If we fix our broken immigration system and provide adequate, 
lawful access to the United States, the population of undocumented 
aliens and the number of aliens coming here illegally will be reduced 
greatly. Then, it will be easier to deal with enforcement problems, and 
we will not need as many detention beds. In the meantime, however, we 
need additional ICE investigators and more detention beds. We also need 
to stop the inhumane practice of housing asylum seekers in penal 
settings where they are treated as incarcerated criminals.

                              ----------                              

           Prepared Statement of Representative Linda Sanchez

        <bullet>  I want to thank Chairman Hostettler and Ranking 
        Member Jackson Lee for holding this important oversight hearing 
        on our nation's Interior Immigration Enforcement Resources.

        <bullet>  Like all Americans, I know that our immigration 
        system is broken. Without a doubt we need to fix it and we need 
        the Bush Administration to provide the necessary funding to 
        secure our borders.

        <bullet>  However, let's not forget in all of our discussions 
        about enforcement, that the U.S. has always been a beacon of 
        hope and we must continue to guard the light of liberty for 
        those who are oppressed or displaced, or are coming here to 
        seek new opportunities for their families.

        <bullet>  The Committee's last two immigration hearings have 
        focused on attacking immigrants and not the Republican 
        Administration's failure to meet its promise to secure our 
        borders.

        <bullet>  Providing funding for only 210 CBP agents when 2,000 
        agents were authorized. And funding only 137 new ICE 
        investigators, which is 17% of the 800 additional 
        investigators, this just doesn't cut it!

        <bullet>  Not only is this frustrating, but it undermines the 
        term, ``Homeland Security.''

        <bullet>  There is no excuse for this! Time and time again, the 
        Bush Administration guts funding to secure our borders and 
        ports. Instead of providing resources, they use immigrants as a 
        smoke-screen for our security and immigration problems.

        <bullet>  Attacking immigrants alone is not going to resolve 
        the issue, since the majority of immigrants come to this 
        country seeking a better life for themselves and their 
        families.

        <bullet>  Let's remember who these immigrants are--they are my 
        parents, they are people who do the jobs that Americans don't 
        want, and they are those seeking refuge from blood-thirsty 
        regimes.

        <bullet>  If we fix our broken immigration system and provide 
        adequate, lawful access to the United States through an earned 
        legalization and guestworker program, the population of 
        undocumented immigrants will greatly decrease.

        <bullet>  This would also make it easier for us to deal with 
        enforcement problems.

        <bullet>  I'd ask that we all remember our humanity as we 
        discuss ways to improve our immigration system. These are real 
        people--not just statistics--trying to achieve the American 
        Dream.

        <bullet>  I look forward to hearing from the witnesses who are 
        trying to protect our borders and ports everyday.

        <bullet>  I thank both the Ranking Member and Chairman for 
        convening this hearing.

        <bullet>  I yield back.

                                 <all>

</pre></body></html>
